<html>
<title> - CLOSING THE DIGITAL DIVIDE: BROADBAND INFRASTRUCTURE SOLUTIONS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


     CLOSING THE DIGITAL DIVIDE: BROADBAND INFRASTRUCTURE SOLUTIONS

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 30, 2018

                               __________

                           Serial No. 115-95
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                    
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-879                      WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="086f7867486b7d7b7c606d6478266b676526">[email&#160;protected]</a>                     
                    
                 
                    
                    
                    
                    
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     1
    Prepared statement...........................................     3
Hon. Leonard Lance, a Representative in Congress from the State 
  of New Jersey, prepared statement..............................     4
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     4
    Prepared statement...........................................     5
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8
    Prepared statement...........................................     9

                               Witnesses

Jonathan Spalter, President and CEO, USTelecom...................    11
    Prepared statement...........................................    13
    Answers to submitted questions...............................   186
Brad Gillen, Executive Vice President, CTIA......................    19
    Prepared statement...........................................    21
    Answers to submitted questions...............................   190
Matthew M. Polka, President and CEO, American Cable Association..    32
    Prepared statement...........................................    34
    Answers to submitted questions...............................   193
Shirley Bloomfield, CEO, NTCA--The Rural Broadband Association...    49
    Prepared statement...........................................    52
    Answers to submitted questions...............................   196
Scott Slesinger, Legislative Director, Natural Resources Defense 
  Council........................................................    61
    Prepared statement \1\.......................................    63
    Answers to submitted questions...............................   200
Joanne S. Hovis, President, CTC Technology and Energy............    73
    Prepared statement...........................................    75
    Answers to submitted questions...............................   203
Elin Swanson Katz, Consumer Counsel, Connecticut Consumer Counsel    85
    Prepared statement \2\.......................................    87
    Answers to submitted questions...............................   210

                           Submitted Material

Statement of the American Cable Association, submitted by Mrs. 
  Blackburn......................................................   134
Statement of CTIA, submitted by Mrs. Blackburn...................   136
Statement of NCTA--The Internet & Television Association, 
  submitted by Mrs. Blackburn....................................   137
Statement of the Competitive Carriers Association, submitted by 
  Mrs. Blackburn.................................................   139
Statement of the Telecommunications Industry Association, 
  submitted by Mrs. Blackburn....................................   141
Statement of C-TEC, submitted by Mrs. Blackburn..................   143
Statement of the Power and Communication Contractors Association, 
  submitted by Mrs. Blackburn....................................   145
Statement of the Wireless Infrastructure Association, submitted 
  by Mrs. Blackburn..............................................   146
White paper by CISCO, submitted by Mrs. Blackburn................   148
Letter of January 23, 2018, from Members of Congress to President 
  Donald J. Trump, submitted by Mr. Welch........................   157
Article entitled, ``When the city is your internet provider, the 
  real cost may be hidden,'' Belleville News-Democrat, January 
  30, 2018, submitted by Mr. Shimkus.............................   158
Study entitled, ``Community-Owned Fiber Networks: Value Leaders 
  in America,'' Harvard University, January 2018, submitted by 
  Ms. Eshoo......................................................   161
Press release, The Power and Communication Contractors 
  Association, submitted by Mr. Doyle............................   178
Article entitled, ``Scoop: Trump team considers nationalizing 5G 
  network, Axios, January 29, 2018, submitted by Mr. Doyle.......   180
Statement of Tipmont REMC, submitted by Mr. Doyle................   183

---------- \1\
\1\ Mr. Slesinger's full statement can be found at: https://
  docs.house.gov/meetings/if/if16/20180130/106810/hhrg-115-if16-
  wstate-slesingers-20180130-u5050.pdf.
\2\ Ms. Swanson Katz's full statement can be found at: https://
  docs.house.gov/meetings/if/if16/20180130/106810/hhrg-115-if16-
  wstate-swansonkatze-20180130-u5060.pdf.

 
     CLOSING THE DIGITAL DIVIDE: BROADBAND INFRASTRUCTURE SOLUTIONS

                              ----------                              


                       TUESDAY, JANUARY 30, 2018

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:58 a.m., in 
room 2322, Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Present: Representatives Blackburn, Lance, Shimkus, Latta, 
Guthrie, Olson, Kinzinger, Bilirakis, Johnson, Long, Flores, 
Brooks, Collins, Cramer, Walters, Costello, Walden (ex 
officio), Doyle, Welch, Clarke, Loebsack, Ruiz, Dingell, Rush, 
Eshoo, Butterfield, Matsui, McNerney, and Pallone (ex officio).
    Also Present: Representative Tonko.
    Staff Present: Jon Adame, Policy Coordinator C&T; Ray Baum, 
Staff Director; Karen Christian, General Counsel; Kelly 
Collins, Staff Assistant; Robin Colwell, Chief Counsel, 
Communications & Technology; Adam Fromm, Director of Outreach 
and Coalitions; Elena Hernandez, Press Secretary; Zach Hunter, 
Director of Communications; Tim Kurth, Deputy Chief Counsel, 
Communications & Technology; Lauren McCarty, Counsel, 
Communications & Technology, Katie McKeogh, Press Assistant; 
Evan Viau, Legislative Clerk, Communications & Technology; 
Hamlin Wade, Special Advisor, External Affairs; Everett 
Winnick, Director of Information Technology; Jacqueline Cohen, 
Minority Chief Environment Counsel; David Goldman, Minority 
Chief Counsel, Communications & Technology; Tiffany Guarascio, 
Minority Deputy Staff Director and Chief Health Advisor; Jerry 
Leverich, Minority Counsel; Jourdan Lewis, Minority Staff 
Assistant; Dan Miller, Minority Policy Analyst; Tim Robinson, 
Minority Chief Counsel; C.J. Young, Minority Press Secretary; 
and Catherine Zander, Minority Environment Fellow.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. The Subcommittee on Communications and 
Technology will now come to order. The chair now recognizes 
herself for 5 minutes for an opening statement.
    Welcome to the subcommittee's first hearing of the new 
year. And I must say, we are off to a very promising start. We 
wanted to have a very inclusive hearing today to discuss all of 
the great ideas from subcommittee members on both of sides of 
aisle to create broadband infrastructure deployment, and a goal 
of closing the digital divide. Whether you agree or disagree 
with any individual idea, it is so important that we get the 
conversation started, and we have got a lot to talk about with 
25 bills introduced in time to be a part of today's hearing. I 
very much appreciate all of the thoughtful proposals and the 
great work from the staff of both the Republican and the 
Democrat side, and I look forward to seeing progress as we move 
through the next few weeks.
    These legislative initiatives follow the leadership of 
President Trump's recent efforts on broadband infrastructure. 
The bills to be examined in this hearing are targeted at 
promoting the innovation, cutting red tape, and advancing 
public safety.
    It is impossible in my allotted time to highlight each 
bill, but I do want to call attention to a couple of 
resolutions expressing the guiding principles on broadband 
infrastructure that should underpin our efforts.
    First, as noted by Vice Chairman Lance, any funds for 
broadband in an infrastructure package should go to unserved 
areas.
    Second, as noted by Congressman Latta, the Federal 
Government should not be picking winners and losers in the 
marketplace. Any Federal support for broadband infrastructure 
should be competitively and technologically neutral.
    If we adhere to these principles, I am confident we can 
avoid the pitfalls of waste, fraud, inefficiency that marred 
the previous administration's efforts on broadband 
infrastructure.
    Lastly, and perhaps most important, Congress should be 
mindful of the significant amounts of private capital spent to 
support broadband deployment. Since passage of the bipartisan 
1996 Telecom Act, the private sector has invested roughly $1.6 
trillion in their networks.
    This investment includes wireline, wireless and other 
broadband technologies. However, this investment experienced a 
decline that coincided with the FCC's 2015 decision to 
reclassify the competitive broadband marketplace under Title II 
of the Communications Act, an outdated relic of the 1930's 
monopoly era.
    I want to reiterate our support for Chairman Pai, who 
corrected this ill-conceived policy and returned us to the 
light-touch regulatory approach that allowed the digital 
economy to flourish. This light-touch approach has been the 
bedrock of communications policy since the Clinton 
administration.
    As I previously stated, history makes clear that countries 
with the best communications have the highest economic growth. 
Continuing our Nation's leadership is, and most important, must 
remain a bipartisan effort.
    And I am pleased to note that our effort has broad support 
from a cross section of the industry.
    At this time, I would like to enter into the record several 
letters of support from American Cable Association, CTIA, NCTA, 
Competitive Carriers Association, Telecommunications Industry 
Association, U.S. Chamber of Commerce, Power and Communication 
Contractors Association, and the Wireless Infrastructure 
Association.
    [The information appears at the conclusion of the hearing.]
    Mrs. Blackburn. I am pleased to convene this hearing. I 
look forward to the testimony of our witnesses. And with that, 
I yield the remainder of my time to the vice chairman of the 
subcommittee, Mr. Lance.
    [The prepared statement of Mrs. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    Welcome to the subcommittee's first hearing of the new 
year. And I must say we are off to a very promising start. We 
wanted to have a very inclusive hearing today to discuss all of 
the ideas from Subcommittee members on both sides of the aisle 
to promote broadband infrastructure deployment with a goal of 
closing the digital divide. Whether you agree or disagree with 
any individual idea, it is so important that we get the 
conversation started. And we have plenty to talk about, with 25 
bills introduced in time to be part of our hearing today. I 
very much appreciate all of the thoughtful proposals and look 
forward to seeing many of them progress in the coming weeks.
    These legislative initiatives follow the leadership of 
President Trump's recent efforts on broadband infrastructure. 
As stated in the President's recent Executive Order:
    ``Americans need access to. broadband internet service to 
succeed in today's information-driven, global economy.
    ``Currently, too many American citizens and businesses. 
lack access to this basic tool. [and] this problem is 
particularly acute in rural America.''
    Collectively, the bills to be examined at this hearing are 
targeted at promoting innovation, cutting red tape, and 
advancing public safety.
    Together, Congress and the administration can help span the 
digital divide so all Americans may fully realize the 
innovations made possible by broadband.
    This will require expanding broadband to unserved areas, 
supporting deployment of advanced networks and new technology, 
as well as helping citizens recover from hurricanes, floods, 
fires, and other disasters.
    It's impossible in my allotted time to highlight each bill, 
but I do want to call attention to a couple of resolutions 
expressing the guiding principles on broadband infrastructure 
that should underpin our efforts:
    First, as noted by Vice Chairman Lance, any funds for 
broadband in an infrastructure package should go to unserved 
areas.
    Second, as noted by Congressman Latta, the Federal 
Government should not be picking winners and losers in the 
marketplace; any federal support for broadband infrastructure 
should be competitively and technologically neutral.
    If we adhere to these principles, I am confident we can 
avoid the pitfalls of waste, fraud, abuse, and inefficiency 
that marred the previous administration's efforts on broadband 
infrastructure.
    Lastly, and perhaps most importantly, Congress should be 
mindful of the significant amounts of private capital spent to 
support broadband deployment. Since passage of the bipartisan 
1996 Telecommunications Act, the private sector has invested 
roughly $1.6 trillion in their networks.
    This investment includes wireline, wireless, and other 
broadband technologies. However, this investment experienced a 
decline that coincided with the FCC's 2015 decision to 
reclassify the competitive broadband marketplace under Title II 
of the Communications Act, an outdated relic of the 1930s 
monopoly-era.
    I want to reiterate our support for Chairman Pai who 
corrected this ill-conceived policy and returned us to the 
light-touch regulatory approach that allowed the digital 
economy to flourish. This light-touch approach has been the 
bedrock of communications policy since the Clinton 
administration.
    As I have previously stated: history makes clear that 
countries with the best communications have the highest 
economic growth. Continuing our nation's leadership is, and 
must remain, a bipartisan effort.
    I am pleased to convene this hearing, and I look forward to 
the testimony of our witnesses.

    Mr. Lance. Thank you very much. And first of all, the State 
of the Union is that the chair is doing a terrific job at this 
subcommittee.
    Since 1996, the wireless and wireline industries have 
invested over $1.6 trillion in private capital investment. As 
we consider how best to promote broadband deployment and Next 
Generation Networks, it is important that we remember the 
success of private investment in the past and pursue Federal 
policies to help and encourage an emphasis on private 
investment in the future.
    As our economy becomes more digitized, we must ensure 
broadband access to all areas of the country.
    It is important that we recognize that any Federal funds 
for broadband deployment will be finite, and our focus on 
unserved or underserved areas of the Nation.
    I am pleased we are considering the Access Broadband Act, 
which I have introduced with Congressman Tonko on a bipartisan 
basis. I commend the chair and the members of the subcommittee 
on both sides of the aisle on the impressive package of 
broadband infrastructure bills we are considering today. I look 
forward to hearing the testimony from the panel.
    Madam Chair, I yield back.
    [The prepared statement of Mr. Lance follows:]

                Prepared statement of Hon. Leonard Lance

    Thank you, Chairman Blackburn, and thank you to our 
distinguished panel members for appearing before us today.
    Since 1996, the wireless and wireline industries have 
invested over $1.6 trillion in private capital investment. As 
we consider how best to promote broadband deployment and next 
generation networks it is important that we remember the 
successes of private investment in the past and pursue federal 
policies to help and encourage an emphasis on more private 
investment in the future.
    As our economy becomes increasingly more digitized, 
bringing broadband access to more areas of the country connects 
more consumers and small businesses to the internet economy for 
the economic benefit of all. However, in many rural areas of 
the country, the cost to deploy broadband infrastructure is 
prohibitive and I believe that there is a role for federal 
funding to play in the cases where prohibitive costs prevent a 
market solution.
    However, it is important that we recognize that any federal 
funds for broadband deployment will be finite and are focused 
on unserved areas of the country. The Federal Government should 
not be in the business of subsidizing competitors in local 
markets where a broadband provider already provides service and 
I am pleased that we are considering my resolution that clearly 
states this principle.
    I am also pleased we are considering the ACCESS BROADBAND 
Act, which I introduced with Congressman Tonko. The bill would 
streamline the federal grant programs related to broadband 
deployment and better track how federal funds are used. I thank 
Congressman Tonko for his leadership on this important issue.
    I commend Chairman Blackburn and the members of the 
subcommittee on both sides of the aisle on the impressive 
package of broadband infrastructure bills we are considering 
today. I look forward to hearing the testimonies from the 
panel.

    Mrs. Blackburn. The gentleman yields back. Mr. Doyle, you 
are recognized, 5 minutes.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Madam Chair for holding this hearing, 
and thank you to the witnesses for appearing before us today.
    I want to start off by saying that I share Chairman 
Blackburn's and this committee's goal of ensuring that all 
Americans have access to broadband, and that we need to come 
together, on a bipartisan basis, to address the challenges that 
millions of Americans face today from a lack of broadband 
access, a lack of sufficient speeds, and a lack of affordable 
option. While it is crucial that nobody gets left behind, I 
believe we cannot ignore the lack of competition, particularly 
among wireline providers, and the high cost of service that 
results in far too many foregoing service.
    That being said, I am concerned about the approach we are 
taking here today. We are considering 25 bills at this hearing. 
I can't remember a time when this committee held a hearing on 
so many bills with a single panel of witnesses. We are simply 
not giving these bills the time and expertise required for the 
members of this committee to fully consider each of these bills 
and the ramifications. It would seem to me far more prudent to 
have hold a series of hearings so that members would have an 
opportunity to discuss and understand the proposals before us. 
Rushing this process gives short shrift to many worthwhile 
ideas for members on both sides of the aisle, and precludes 
these bills from undergoing a truly deliberative process.
    It is my hope that Chairman Blackburn and the committee 
staff for the majority can work with us to avoid this 
unnecessary problem for the future. It is my hope, Madam Chair, 
that as we move forward on broadband infrastructure 
legislation, we can do so on a collaborative and bipartisan 
basis.
    That being said, I am concerned that many of the majority's 
proposals do not actually address the primary issue of getting 
broadband to rural America, and that there is no business case 
for that private investment. If we are serious about solving 
this problem, and we believe that people living in rural areas 
should have access to reasonably comparable service, we need to 
appropriate the funds necessary for that buildout.
    With that Madam Chair, I would like to yield a minute to my 
good friend, Ms. Eshoo from California, and then a minute and a 
half to my good friend, Mr. Welch.
    [The prepared statement of Mr. Doyle follows:]

              Prepared statement of Hon. Michael F. Doyle

    Thank you, Chairman Blackburn for holding this hearing, and 
thank you to the witnesses for appearing before us today.
    I want to start off by saying that I share Chairman 
Blackburn's and this Committee's goal of ensuring that all 
Americans have access to broadband--and that we need to come 
together on a bipartisan basis to address the challenges that 
millions of Americans face today from a lack of broadband 
access, a lack of sufficient speeds, and a lack of affordable 
options.
    While it is crucial that nobody gets left behind, I believe 
that we cannot ignore the lack of competition, particularly 
among wireline providers, and the high cost of service that 
results in far too many people forgoing service.
    That being said, I'm concerned about the approach we are 
taking here today. We are considering twenty five bills at this 
hearing, I don't remember a time when this Committee held a 
hearing on so many bills with a single panel of witnesses. We 
are simply not giving these bills the time and expertise 
required for the members of this Committee to fully consider 
each of these bills and their ramifications.
    It would seem far more prudent to hold a series of hearings 
so that members would have an opportunity to discuss and 
understand each of the proposals before us. Rushing this 
process gives short shrift to many of the worthwhile ideas from 
members on both sides of the aisle, and it precludes these 
bills from undergoing a truly deliberative process.
    It is my hope that Chairman Blackburn and the Committee 
staff for the majority can work with us to avoid this 
shortsightedness and avoid unnecessary problems for the future. 
It is my hope, Madam Chairman, that as we move forward on 
broadband infrastructure legislation we can do so on a 
collaborative and bipartisan basis.
    That being said, I am concerned that many of the Majority's 
proposals do not actually address the primary issue of getting 
broadband to rural America--and that there is no business case 
for private investment. If we are serious about solving this 
problem, and we believe that people living in rural areas 
should have access to reasonably comparable service, we need to 
appropriate the funds necessary for that buildout.

    Ms. Eshoo. I thank the ranking member.
    Here it is, the second decade of the 21st century, and too 
many Americans cannot fully participate in modern life, because 
they do not have a robust broadband connection. It is either 
unavailable to them, or it is unaffordable, and it is our 
responsibility to remedy this. That is why I have introduced 
several bills to clear the way for communities to take control. 
The Community Broadband Act and the Climb Once Act both ensure 
that communities are empowered to create their own municipal 
broadband networks, and streamline pole attachments to improve 
efficiency and competition.
    Where muni broadband is deployed, and where Climb Once 
policies are in place, such as Louisville, Kentucky, Nashville, 
Tennessee, and soon, San Francisco, California, consumers enjoy 
more access, better service and lower prices. And a recent 
Harvard study showed that communities with municipal broadband 
were up to 50 percent lower in cost than private alternatives. 
And the Community Broadband Act will open the doors for all 
communities to explore that option. And most especially, both 
of these bills will really boost and make a difference in rural 
America.
    So I thank the gentleman for yielding time to me, and I 
yield back to him.
    Mr. Doyle. Yes. And I yield the remaining time to Mr. 
Welch.
    Mr. Welch. Thank you. We know about 40 percent of rural 
America has no broadband. Not slow broadband, no broadband. And 
there is no economic future for any part of our country if it 
doesn't have high speed internet. And rural America is being 
left behind. And the other issue here is that it makes no 
economic sense for private markets to be expanding in the rural 
areas. There is no payback. Bottom line: We need funding to 
make certain that rural broadband is real. And we have a group 
on this committee that wrote to President Trump, Mr. Cramer, 
Mr. Kinzinger, Mr. Latta. We want infrastructure funding that 
is real so that there is broadband in rural America.
    Now, absent funding, there is no broadband. It is as simple 
as that. This is a good hearing on several good bills, but 
there is nothing before us that is going to address the funding 
that we need for infrastructure for rural broadband.
    In my call to the committee, is that we get real and 
acknowledge that we have to have money for this buildout, much 
as our predecessors in Congress provided funding for the 
buildout of electricity in rural America. No funding, no 
broadband. It is as simple as that. I yield back.
    Mrs. Blackburn. The gentleman yields back.
    At this time, Chairman Walden, you are recognized for 5 
minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Madam Chair, and thanks to all our 
members, and especially to our witnesses. We got a big panel of 
witnesses because we have a lot of really important ideas from 
our members. We have got 25 bills, as you have heard; eight of 
them from Democrats, the other 17 from Republicans. Obviously, 
this committee is used to dealing with big, important issues. 
Sometimes we have had bills that are maybe hundreds of pages 
long. These are, I think, important policy statements in some 
cases, streamlining processes in other cases.
    The whole concept here is to look at the broad range of 
ideas that members have brought to this committee for its 
consideration. And that is why at the subcommittee level, we 
thought it was important to put as many of these bills as 
possible up for the public to see, because it is on our agenda 
and our website, but also for us to begin getting our heads 
around as we move forward in our legislative process.
    So I am delighted to have the bills before us. I am 
delighted you all are before us. I remember when the last 
administration did the stimulus bill. It was a whopping $7 
billion they pushed out the door before they produced the maps 
to tell us where unserved areas were in America. They only did 
that after the fact.
    So as you know, we are trying to get the other side of that 
coin and identify where are the really unserved and underserved 
areas? What kind of reporting mechanisms are poorly being 
conducted today to show us that? We want NTIA and other 
organizations to help us figure that out. So when the taxpayer 
or ratepayers' money is invested, it is not invested to 
overbuild, it is invested to reach out to the 29 million 
Americans, 23 million Americans, 39 percent rural areas that 
don't have access to high speed broadband.
    Because you know, at $7 billion, you have to remember in 
the market, they are spending close to $80 billion a year on 
broadband deployment; $1.6 trillion between 1996, I think it 
is, and 2006. But anyway, the big investment here is done on 
the private sector. There is public money that is spent. Our 
job is to make sure that public money is spent appropriately 
and helps close this digital divide.
    You want to talk about rural? My district would stretch 
from the Atlantic to Ohio. It is 69,341 square miles. I have 
got places in my district where there is one person for every 9 
miles of power line. We live this gap every day, and we are 
trying to close it. And there are multiple ways to close it, 
but one of the best ways is to make sure that we can expedite 
the closure of that through reform siting, targeting the 
financial resources of ratepayers and the government, 
specifically to those areas that are underserved, and helping 
move this country forward to connectivity like we have never 
seen before.
    In 2012, we worked in bipartisan manner in this committee 
to free up spectrum. That is now being built out. We want to 
move forward with 5G development. Oh, by the way, we are not 
Venezuela where the government doesn't need to own, operate, 
control through a command structure that kind of a network.
    Now, there may be security issues, and I imagine there are, 
and we all ought to be apprised of, and I have asked for a 
briefing, either classified or non, to figure out what those 
issues are. We want to be smart about having a secure network 
for the newest innovation. But I don't know that having the 
government run it is necessarily the best way to go. So we are 
looking at those issues, too.
    This is an exciting time for America. We want to be in the 
lead. We don't want to wait. We can do a hearing every week for 
25 weeks and then move forward, or we can do one hearing with 
25 bills, figure out our ideas among ourselves, come together 
as a committee in a bipartisan way, deal with making America, 
again, clear on the forefront on development of connectivity, 
wired and wireless, and the newest innovation and technology, 
much like we are trying to do with autonomous vehicles. I look 
at my friend and colleague from Ohio with the Self-Drive Act. 
We have a lot before us. Let's get it done.
    With that, Madam Chair, I yield back.
    Mrs. Blackburn. The gentleman yields back. Is there any 
other member requesting his time? Not seeing anyone----
    Mr. Welch. Madam Chair?
    Mrs. Blackburn [continuing]. I will--yes.
    Mr. Welch. I just have a request to--the letter that was 
signed, sent to the President asking for funds can be submitted 
into the record.
    Mrs. Blackburn. Without objection.
    Mr. Welch. Thank you.
    [The information appears at the conclusion of the hearing.]
    Mrs. Blackburn. Yes. Mr. Pallone, at this time, I yield you 
5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chair. One year ago, 
President Trump promised us $1 trillion infrastructure package 
that would bring Democrats and Republicans together. And for 
our part, in May of last year, committee Democrats introduced a 
comprehensive infrastructure package across all areas of this 
committee's jurisdiction. Yet here we are, hours from the State 
of the Union without serious legislation from the President, 
and instead, we have proposals from House Republicans, that 
mostly conflict with the plan that was just leaked out of the 
White House.
    In stark contrast, committee Democrats developed a 
legislative proposal to build the type of modern resilient 
infrastructure Americans need and deserve. At a time when our 
Nation's infrastructure is either crumbling or in desperate 
need of modernization, it is time we make real and significant 
investments for the future.
    The LIFT America Act authorizes $40 billion for the 
deployment of secure and resilient broadband. It would also 
provide over $22 billion for drinking water infrastructure; 
over $17 billion for modern; efficient and resilient energy 
infrastructure; over $3 billion for health care infrastructure; 
and almost $3 billion for brownfields redevelopment. And the 
LIFT America Act puts real dollars where they are needed: 
creating jobs, revitalizing communities, and addressing serious 
threats to human health and environment. It would address lead 
in school drinking water, fund medical facilities in Indian 
country, reduce carbon emissions, and improve our resilience to 
the impacts of climate change. And it would do all that without 
rolling back environmental safeguards, as we are now hearing is 
a majority component of the President's plan. And when it comes 
to broadband, we have also put forward additional thoughtful 
proposals building on the strong foundations of the LIFT 
America Act. Our bills would ensure we are investing in our 
infrastructure efficiently, basing our decision on good data 
and reaching urban, rural, and tribal lands.
    Over the last couple of weeks, we have seen bipartisan and 
bicameral agreement that we need dedicated funding to improve 
access to broadband nationwide. Yet despite this rare 
consensus, Republicans on this committee have decided to unveil 
a series of partisan bills that don't address the real 
problems. These bills are simply window dressing. They 
unnecessarily pit urban versus rural, industry versus local 
government, and broadband access versus our environment. And 
the Republican proposals will not improve broadband 
development, and may, indeed, hurt workers and the economy in 
parts of the country.
    So I appreciate Republicans scheduling a hearing on 
broadband deployment and including some Democratic proposals, 
but I am concerned that the majority is simply trying to jam 
too much into this one hearing. Seven witnesses discussing 25 
bills will not help the American public understand these 
proposals, let alone the members of this committee.
    What is more, we do not even have the relevant agencies 
here to help us understand how they will interpret the often-
conflicting directions that are included in the Republican 
bills. And we are now a little over a year into this 
administration, and all Washington Republicans have to show the 
American people, in this subcommittee's purview, are a check-
the-box hearing to design to paper over this Republicans' 
failure on infrastructure, the erosion of our privacy rights, 
and the elimination of net neutrality. And when it comes to 
governing, this subcommittee, in my opinion, is falling short.
    And with that, I yield the balance of my time to Mr. Ruiz.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    One year ago, President Trump promised us a trillion dollar 
infrastructure package that would bring Democrats and 
Republicans together. And for our part, in May of last year 
Committee Democrats introduced a comprehensive infrastructure 
package across all areas of this Committee's jurisdiction. Yet, 
here we are, hours from the State of the Union, without serious 
legislation from the President. All we have are some back of 
the napkin proposals from House Republicans that completely 
conflict with the plan just leaked out of the White House.
    In stark contrast, Committee Democrats developed a 
legislative proposal to build the type of modern, resilient 
infrastructure Americans need and deserve. At a time when our 
nation's infrastructure is either crumbling or in desperate 
need of modernization, it's time we make real and significant 
investments for the future.
    The LIFT America Act authorizes $40 billion for the 
deployment of secure and resilient broadband. It would also 
provide over $22 billion for drinking water infrastructure, 
over $17 billion for modern, efficient, and resilient energy 
infrastructure, over $3 billion for healthcare infrastructure, 
and almost $3 billion for brownfields redevelopment.
    The LIFT America Act puts real dollars where they are 
needed, creating jobs, revitalizing communities, and addressing 
serious threats to human health and the environment. It would 
address lead in school drinking water, fund medical facilities 
in Indian Country, reduce carbon emissions, and improve our 
resilience to the impacts of climate change. And it would do 
all that without rolling back environmental safeguards as we 
are now hearing is a major component of the President's plan.
    When it comes to broadband, we have also put forward 
additional, thoughtful proposals, building on the strong 
foundation of the LIFT America Act. Our bills would ensure 
we're investing in our infrastructure efficiently, basing our 
decision on good data, and reaching urban, rural, and tribal 
lands.
    Over the last couple of weeks, we have seen bipartisan and 
bicameral agreement that we need dedicated funding to improve 
access to broadband nationwide. Yet, despite this rare 
consensus, Republicans on this Committee have decided to unveil 
a series of partisan bills that don't address the real 
problems. But these bills are worse than simply window 
dressing. They turn bipartisan agreements on their head, 
unnecessarily pitting urban versus rural, industry versus local 
governments, and broadband access versus our environment. The 
Republican proposals will not improve broadband deployment, but 
will hurt workers and the economy.
    I appreciate Republicans scheduling a hearing on broadband 
deployment and including some Democratic proposals, but I'm 
concerned that the Majority is simply trying to jam too much 
into this one hearing. Seven witnesses discussing 25 bills will 
not help the American public understand these proposals, let 
alone the members of this Committee. What's more, we do not 
even have the relevant agencies here to help us understand how 
they will interpret the often conflicting directions included 
in the Republican bills.
    We are now a little over year into this Administration, and 
all Washington Republicans have to show the American people in 
this Subcommittee's purview are a check-the-box hearing 
designed to paper over the Republicans' failure on 
infrastructure; their erosion of our privacy rights; and their 
elimination of net neutrality. When it comes to governing, this 
Subcommittee is falling short.
    Thank you.

    Mr. Ruiz. Thank you. In today's digital age, access to high 
speed internet is simply essential. That is why we must do more 
to bridge the digital divide. Today, the committee is finally 
beginning to advance the bipartisan commonsense solutions that 
we were sent here to find. For example, the bipartisan Rural 
Wireless Access Act introduced by Mr. Loebsack, would help the 
FCC provide targeted Federal assistance to deploy wireless 
service in rural areas with the worst coverage.
    In my bill, H.R. 1581, the Tribal Digital Access Act would 
help close the digital divide in Indian country by codifying 
and reinforcing the importance of the FCC Universal Service 
Fund programs that serve tribal communities.
    Tribal lands are the most underserved regions in our Nation 
in terms of broadband access. We have a responsibility to honor 
our legal and moral obligations, and this commonsense bill 
helps do just that. I urge the committee to move these bills as 
quickly as possible along with other bipartisan solutions 
before us here today.
    And I yield back my time to Mr. Pallone.
    Mr. Pallone. And I yield back, Madam Chair.
    Mrs. Blackburn. The gentleman yields back, and this 
concludes our member opening statements.
    I would like to remind all the members that, pursuant to 
the committee rules, you all have your statements that can be 
made a part of the record. And we want to thank our witnesses 
for being here today and for taking their time to testify 
before the subcommittee.
    Today's witnesses will have the opportunity to give opening 
statements, followed by a round of questions from the members. 
Our panel for today's hearing will include Mr. Jonathan 
Spalter, President and CEO of USTelecom; Mr. Brad Gillen, 
Executive VP of CTIA; Mr. Matt Polka, President and CEO of the 
American Cable Association; Ms. Shirley Bloomfield, CEO of the 
NTCA--the Rural Broadband Association; Mr. Scott Slesinger, the 
Legislative Director of the Natural Resources Defense Council; 
Ms. Joanne Hovis, President of CTC Technology and Energy; and 
Ms. Elin Swanson Katz, the Connecticut Consumer Counsel.
    We appreciate each of you for being here today and for 
preparing for this committee, submitting your testimony. Today, 
we will begin with you, Mr. Spalter, for 5 minutes, and we will 
work right through the dais. You are recognized.

 STATEMENTS OF JONATHAN SPALTER, PRESIDENT AND CEO, USTELECOM; 
BRAD GILLEN, EXECUTIVE VICE PRESIDENT, CTIA; MATTHEW M. POLKA, 
    PRESIDENT AND CEO, AMERICAN CABLE ASSOCIATION; SHIRLEY 
  BLOOMFIELD, CEO, NTCATHE RURAL BROADBAND ASSOCIATION; SCOTT 
  SLESINGER, LEGISLATIVE DIRECTOR, NATURAL RESOURCES DEFENSE 
COUNCIL; JOANNE S. HOVIS, PRESIDENT, CTC TECHNOLOGY AND ENERGY; 
 AND ELIN SWANSON KATZ, CONSUMER COUNSEL, CONNECTICUT CONSUMER 
                            COUNSEL

                 STATEMENT OF JONATHAN SPALTER

    Mr. Spalter. Thank you. Chairwoman Blackburn, Ranking 
Member Doyle, and other distinguished members of the 
subcommittee, thank you for the opportunity to appear before 
you. I am Jonathan Spalter, President and CEO of USTelecom, 
representing our Nation's broadband providers, large and small, 
urban and rural, and everything in between. All of our members 
are deeply committed to and are on the front lines of the 
massive effort underway to connect all Americans to the 
opportunities and possibilities of broadband. So we greatly 
appreciate this subcommittee's leadership and the growing 
momentum we are seeing throughout Congress on both sides of the 
aisle to aid this effort.
    In a few short hours, we know the President will deliver 
his State of the Union address, and according to the pundits, 
topics that draw consensus will probably be few and far 
between. But infrastructure is one of those rare issues with a 
powerful centrifugal force pulling us all together. From the 
administration's statements and actions to Senator's Schumer's 
blueprint to the 25 bills now making their way through this 
committee, Washington has caught up to the connected times, and 
not a moment too soon, acknowledging the pivotal role of 
information infrastructure, the 1s and 0s of broadband networks 
to our Nation.
    Since the earliest days of our internet as we sought to 
rise above the honk and screech of dial-up service, expanding 
and upgrading the Nation's broadband networks has largely been 
a private sector endeavor. America's broadband providers have 
invested, as Vice Chairman Lance and as Chairman Walden 
mentioned, more than $1.5 trillion over the last two decades, 
building out U.S. digital infrastructure, and that is more than 
our Nation spent in public dollars to put a man on the moon, 
and to build out our interstate highway system combined.
    So why must we continue to commit public funds to the 
cause? Because we risk leaving millions of U.S. households and 
citizens behind if we do not. We know the private investment 
model works well in reasonably populous areas, but the business 
case breaks down when the average $27,000 per mile of LAN 
fiber, not to mention the network upgrades and maintenance 
costs associated with it that are constantly required, must be 
spread across a handful of users.
    Broadband companies, USTelecom members, want to connect 
everyone from our most populated urban areas to the most remote 
rural communities in our Nation, but they need a committed 
partner in these final unserved, high-cost areas. And that 
partner should be all of us, including government.
    So what specifically does that mean? First, new and direct 
public funding is needed to supplement private investment in 
connecting the final frontier. Second, care must be taken to 
ensure broadband funding is not merely an option on a vast 
spending menu, but has its own specific allocation. A position 
now being championed by the bipartisan cochairs of the rural 
broadband caucus. And thank you very much for that. Third, 
public dollars should prioritize connecting unserved areas 
using proven mechanisms, chief among them, universal service 
fund, to move quickly and with accountability while minimizing 
administrative costs to U.S. taxpayers. Fourth, connectivity 
also should be factored into physical infrastructure projects. 
Adding more of our bridges and roads to broadband connectivity 
makes them smarter, safer, more cost effective, and extends 
their useful life. Last, a stable streamlined regulatory 
environment can accelerate and extend the impact of both public 
and private dollars.
    Earlier this month, the President signed an executive order 
to expedite Federal permitting so broadband companies can build 
infrastructure in rural areas faster. Continuing these efforts 
reduces deployment costs, stretching limited resources further. 
When it comes to broadband, this grand aspiration of a truly 
connected nation truly is within striking distance. Working 
together, we have the means and the opportunity to relegate 
this challenge to the history books. All that remains is a 
question of will.
    For that reason, I really greatly appreciate the 
subcommittee's interest today and your ongoing leadership. The 
Nation's broadband provider stands ready to link arms with the 
Nation's policy leaders and anyone else who wants to help step 
up to finish the job. Thank you very much.
    [The prepared statement of Mr. Spalter follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back. Mr. Gillen, 5 
minutes.

                    STATEMENT OF BRAD GILLEN

    Mr. Gillen. Good morning. Thank you, Chairman Blackburn, 
Ranking Member Doyle, and the subcommittee for including 
wireless as part of this conversation.
    The sheer number of bills and proposals before us 
underscores the scope of the challenges we face together, as 
well as the opportunities we have working together to solve 
them. For us, we really see the infrastructure as the 
opportunity to create jobs, drive economic growth and expand 
opportunities for all Americans for better broadband to more 
Americans.
    The subcommittee has really two core challenges before you. 
The first is the digital divide. From Vermont to eastern 
Oregon, there are too many Americans today, despite billions 
invested and years of work that do not have access to the wired 
and wireless broadband solutions that all of us rely on every 
day. We look forward to working with this subcommittee to 
shrink and address that gap and drive both wired and wireless 
broadband deeper in America.
    Our second challenge is one of global competitiveness. We 
lead the world today in 4G wireless services. Just last month, 
the International Standards body set the rules for the 5th 
generation of wireless, or 5G, and the race is now on. Other 
countries have seen what leadership has meant here, and they 
want to take that a mantle from us. China and others are 
investing billions and accelerating their deployment schedules 
with over 100 active trials ongoing today.
    In the U.S., we like to win, too, and we are ready to 
invest as well. We have our own trials ongoing. We are 
investing in the technology we think we are going to need to 
win, and ultimately, we are ready to invest approximately $275 
billion in private capital over the next 10 years to build out 
those networks.
    So we don't need Federal funding from this committee to 
solve the 5G problem. We do need help to modernize our approach 
to siting. Because these networks will be different because we 
are going to build them with these, small cells, hundreds of 
thousands of these attached to street lights and to sides of 
buildings. And the challenge we face today is that too often, a 
device that takes 1 to 2 hours to install can take 1 to 2 years 
to get approved.
    The challenge we face is that because at every level of 
government, local, state and Federal, we treat these like a 
275-foot tower along the side of a highway. In short, our new 
networks need new rules, and that is why we appreciate this 
committee's focus on this issue, particularly today, focusing 
on the Federal impediments we face. Representative Shimkus is 
focusing on how do we modernize our Federal regulation to 
expedite deployment of things like this and other new 
infrastructure. Congresswoman Brooks and Representative Matsui, 
how do we marshal Federal assets to drive broadband deeper into 
rural America by better utilizing Federal lands.
    The other thing for this committee, we would hope for in 
future sessions to talk about, is this committee's leadership 
and role with respect to state and local siting as well. It is 
the committee's leadership in 1992, 1996, and most recently in 
2012, to give guardrails and guidance to local communities as 
to how siting can and should work to ensure we have deployment 
of wireless and broadband. And just like Federal rules need to 
be updated, so does that Federal guidance. And when we get 
those rules right, 5G will be transformative to all of your 
communities. It will unlock remote surgery, self-driving cars, 
and the Internet of Things. It is going to create jobs. It is 
going to create 2800 jobs in downtown Pittsburgh, 3 million 
across the country. It is going to build communities.
    Clarksville, Tennessee will see over $200 million added to 
its economy, $500 billion nationwide. That is why we are 
excited about winning the 5G race. That is why we think it is 
so important. And we also need to make sure in doing that, we 
also make sure that all Americans have access to broadband at 
the same time. So we think with bold bipartisan leadership by 
this Congress, this committee, we can and need to do both.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gillen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. Thank you so much. At this time, Mr. Polka, 
5 minutes.

                 STATEMENT OF MATTHEW M. POLKA

    Mr. Polka. Thank you, Chairman. As you know, for the last 
year, ACA and its members have been discussing with members on 
both sides of the aisle, the administration, and the FCC, about 
how to effectively and efficiently close the digital divide. 
ACA appreciates and supports the subcommittee's commitment to 
bring broadband to all Americans.
    Over the past decade, because of many hundreds of billions 
of dollars of private investment by ACA members and others, and 
the FCC's reforms to its universal service programs, we are 
closing in on this goal. Today, more than 100 million homes 
have access to broadband speeds greater than 100 megabits per 
second. And only 5.3 million remain with speeds less than 10 
megabits. Not only have ACA members been investing billions to 
upgrade and expand their networks, but also many with their own 
money have deployed 840 thousand homes that would otherwise be 
eligible for FCC's support.
    We should recognize and build upon those successes. We 
know, however, there was much more to do, but from my travels 
visiting with ACA members across the country, I can tell you 
that ACA members are committed to serving the Nation's most 
challenging corners. They believe we can close the digital 
divide, and they believe we can keep it shut by following four 
principles: First, encourage private investment; second, remove 
barriers to deployment; third, before spending Federal funds, 
let us take account of successes; fourth, provide broadband 
subsidies efficiently.
    Let me expand. First, let us encourage private investment. 
Fixed and mobile broadband providers today are spending $75 
billion annually to upgrade and expand broadband networks. This 
will continue for the foreseeable future, and should be 
encouraged by avoiding governmental action that would hinder 
these investments. For example, it would not be helpful if 
government funds were used to overbuild unsubsidized providers 
or measures were adopted that were not competitively and 
technologically neutral favoring one class of providers or an 
industry sector over others. Second, let us remove barriers to 
deployment. Building high-performance broadband networks is 
costly, and you will get the most bang without spending a buck 
by lowering those costs.
    Here are some steps to take: Facilitate access to utility 
poles by removing impediments, such as fixing the make-ready 
process; apply the Federal Pole Attachment Law to electric 
cooperatives, and require cost-based nondiscriminatory rights-
of-ways fees, and prohibit charging such fees on a per service 
basis; third, don't neglect successes before determining where 
to spend Federal money and how much is needed. ACA calculates 
that by removing barriers, the cost of network deployment will 
be reduced such that 1.2 million homes would become served with 
fiber infrastructure through private investment alone. 
Moreover, we believe that the new tax law will enable more than 
400,000 unserved homes being served. Finally, the Connect 
America Programs will reduce the number of homes receiving less 
than 10 megabits to 2 million by 2020. Fourth, let us provide 
broadband subsidies efficiently. Through its Connect America 
Programs, the FCC has given us an effective roadmap for 
awarding government support more efficiently by targeting 
support only to unserved areas and awarding support using a 
reverse option.
    With any new money, let us employ these two principles and 
also limit the amount of Federal support to account for state 
subsidies unless any additional broadband performance is 
required.
    The four principles that I set forth will maximize consumer 
welfare, increase economic growth, make communities throughout 
the country thrive, and it will enable you to bridge the 
digital divide sooner and with more sustainable results.
    ACA and its members stand ready to assist you in every way. 
Thank you.
    [The prepared statement of Mr. Polka follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. Ms. Bloomfield, you are recognized for 5 
minutes.

                STATEMENT OF SHIRLEY BLOOMFIELD

    Ms. Bloomfield. Thank you, Chairman Blackburn, Ranking 
Member Doyle, members of this committee, I can't tell you how 
excited we are that you are actually talking about this 
incredibly important topic of broadband and how we ensure all 
Americans actually have access. I am Shirley Bloomfield. I am 
the CEO of NTCA--The Rural Broadband Association, and we 
represent approximately 850 small businesses who are providing 
broadband across this country in 46 states.
    For decades, these small community-based telecommunications 
providers like my membership have really led the charge in 
terms of connecting rural Americans with the rest of the world 
by deploying advanced networks that respond to the need and the 
demand for cutting edge, innovative technology. These companies 
serve areas where the average density is about seven customers 
per square mile, and we actually have a rough density, as 
Chairman Walden had referenced that, but that is essentially in 
the entire average population density of the State of Montana.
    To emphasize the work that these hometown providers have 
done, a recent survey found that 87 percent of NTCA members' 
customers can actually purchase broadband at 10 megabits or 
higher, and 67 percent can access speeds above 25 megs. But the 
job is simply far from done. With the statistics I noted, they 
are good news, but unfortunately, they also still tell the 
story of a lot of rural consumers that need access. And the 
story is still bleaker for those who are not served by NTCA 
member companies.
    Finally, it is not as if the job is done once the network 
is actually built. There is a lot of ongoing work to ensure 
that quality service is still available in very rural areas. So 
the question remains, how do we overcome these challenges of 
deploying and sustaining rural broadband? In the first 
instance, you actually need a business case to even consider 
deploying rural broadband. Questions relating to permitting and 
regulation are very important, of course, but if you can't 
afford to build or sustain a network, these questions never 
even come into play. The economics of broadband are very 
difficult, if not impossible, in many rural markets. The rates 
that rural consumers actually pay is rarely sufficient to cover 
the actual cost of operating in these rural areas, much less 
the large capital expenditures required to deploy the 
broadband.
    I wish I had an easier answer for you but, frankly, the 
infrastructure is expensive and you simply have fewer consumers 
spread across to actually cover the costs. And that is why the 
ongoing support of the High Cost Universal Fund Program 
overseen by the FCC is so critical in making a business case 
for rural broadband.
    A bipartisan letter last year, led by many on this 
subcommittee, was signed by 101 Members of Congress in the 
House encouraging the FCC to ensure sufficient resources are 
available to enable the USF mechanisms to work as they are 
designed. This incredible show of support by Congress was 
greatly appreciated by NTCA and our members, and reaffirms the 
fact that the USF high-cost program is the foundation for rural 
broadband in America.
    If the foundation is strong, we can then focus on the next 
most significant challenge, and that is the barriers to 
deployment itself. And this is where the questions and the 
legislation presented in today's hearing become so very 
important, especially with the potential infrastructure package 
hopefully on the horizon, and Chairman Blackburn, I had the 
privilege of being with you in Tennessee when the President 
signed the memorandum and executive order on broadband. It is 
encouraging that the members of this committee are considering 
measures that are aimed at some of the very unique challenges 
presented by rural broadband.
    Many of your initiatives also mirror some of the work that 
was done on some of the FCC BDAC working groups that I had the 
privilege to serving on, addressing permitting reform, disaster 
relief, broadband mapping, and supporting innovation on a 
technology-neutral basis must be the central part of a 
coordinated and comprehensive effort to help address challenges 
across the broadband landscape.
    Smaller providers, like those in NTCA's membership, have 
neither the staff nor the resources to navigate complex Federal 
agency structures for companies and cooperatives who have an 
average of about 25 employees per system. That time and money 
that is spent on navigating the effort relates to money and 
time that is not spent on deploying broadband.
    This committee's desire to obtain better mapping data is 
also much needed and greatly appreciated. We need accurate, 
granular data. We need transparency on availability to ensure 
the government resources are used to support broadband build-
outs that are deployed as efficiently as possible. And we also 
welcome the subcommittee's consideration of innovative ideas to 
support and enable broadband. Today's small rural broadband 
providers are using all communication technologies available to 
them to provide world class service to their members and to 
their customers.
    Just as we transition from telephone-focused to broadband-
focused companies, we need flexibility and access to additional 
support and resources to deploy new technologies and address 
the remaining challenges.
    In closing, small rural broadband providers, like those in 
my membership, have made great strides in reducing the digital 
divide in rural America, but the job is far from done. With 
millions of rural Americans still without access to robust, 
high speed broadband and millions more served only through the 
help of the FCC's Universal Service Programs, we must continue 
to work diligently to ensure that no child is left behind 
without internet access for homework, no rural area is left 
behind without access to telehealth capabilities, no farmer is 
left without precision agriculture tools, and no main street 
business is prevented from participating in a global economy.
    On behalf of NTCA--The Rural Broadband Association, your 
leadership and your commitment to this issue in identifying 
these challenges and looking for creative solutions is so 
greatly appreciated.
    I appreciate the invitation to be here with you, and I am 
looking forward to engaging with all of you further.
    [The prepared statement of Ms. Bloomfield follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentlelady yields back. Mr. Slesinger, 
you are recognized.

                  STATEMENT OF SCOTT SLESINGER

    Mr. Slesinger. Thank you, Chairman Blackburn, and Mr. 
Doyle. Thank you for the opportunity to testify today. My name 
is Scott Slesinger. I am the legislative director of the 
Natural Resources Defense Council. I will concentrate my oral 
remarks on the impact of Federal environmental reviews on new 
infrastructures, including broadband.
    The poor state of our infrastructure is not because of 
Federal environmental reviews or permitting. Our problem is 
cash. The solution is a political will to appropriate the 
needed dollars.
    Numerous studies from GAO and CRS show that it is not 
Federal rules that are causing delays. The number one problem 
is lack of funding, followed by state and local laws, citizen 
opposition to projects, and zoning restrictions. Mr. Chairman, 
broadband deployment is not delayed by environmental impact 
statements. In fact, no broadband project was ever required to 
do one by the FCC. Drinking water projects suffer from a lack 
of financing, not environmental reviews. Scapegoating NEPA may 
be a cheap applause line, but we cannot streamline our way to 
universal broadband access, new tunnels under the Hudson, or 
bridges over the Ohio River, or new sewer systems.
    I would like the committee to appreciate why NEPA is so 
important. In many cases, NEPA gives your constituents their 
only opportunity to voice concerns about a Federal project's 
impact on their community. Because informed public engagement 
often produces ideas, information, and solutions that the 
government might otherwise overlook, NEPA leads to better 
outcomes for everyone. The NEPA processes save money, time, 
lives, historic sites, endangered species, and public lands, 
while encouraging compromise and resulting in better projects 
with more public support. Most recommendations to cripple the 
process try to limit public notice and comments and are 
undemocratic.
    The first time a rancher learns of a pipeline going through 
his property shouldn't be when an attorney shows up at his door 
with an offer to purchase under threat of taking the property 
by eminent domain. Because many congressional committees have 
tried to assert jurisdiction over NEPA, there has been numerous 
and contradictory changes in the NEPA process made by Congress 
in 2005, 2012, and 2015.
    Various provisions have shortened public comment periods, 
changed the statute of limitations to four different time 
periods, limited access to courts, and set up arbitrary 
deadlines for permit approvals.
    DOT can now find other agencies that miss deadlines, a 
provision that makes as much sense as debtor's prison. The FAST 
Act, based in large part by the Rapid Act promoted by Mr. 
Shimkus, was passed in 2015, made dramatic changes in the 
process. The law created a new interagency administrative 
apparatus called the Federal Infrastructure Permitting 
Improvement Steering Council, which is largely controlled by 
OMB, to set deadlines, push through resolution of interagency 
disputes, and allocate funds and personal resources to support 
the overall decisionmaking process.
    President Trump's first infrastructure permitting executive 
order--as the chief sponsor, Senator Portman wrote in a letter 
to the President--contradicted authorities and responsibilities 
already in FAST-41 to the consternation of project sponsors 
that were already participating in the permitting board's 
existing process, and this slowed projects. Even the business 
roundtable has said that we should be looking at existing law, 
not layer on new laws to the NEPA process.
    Despite enactment of these laws, the Congress has many 
bills go to the House floor that would further amend the NEPA 
process without regard for their impact on process changes 
already made. Rather than simplifying current processes, these 
bills would create new conflicts, sow confusion and delay 
project reviews. The recent draft infrastructure proposal from 
the White House should not be taken seriously. The leaked 
provisions would repeal critical clean air, clean water, and 
endangered species protections. It would also set up a process 
guaranteed to neuter public input into Federal actions, such as 
giving agency heads free rein to virtually exempt any project 
from NEPA free from court challenge.
    To fix our infrastructure, we don't need to give the 
Interior Secretary carte blanche to build pipelines through 
every National Park. We do need NEPA to help build a modern 
infrastructure system that is resilient, energy-efficient, and 
takes into account the impacts of a changing climate in the 
needs of the 21st century. We can do this smarter and better by 
using, not crippling, the environmental review process.
    Thank you for the opportunity to testify, NRDC looks 
forward to working with the committee on bold and effective 
solutions to our Nation's infrastructure challenges. Thank you.
    [The prepared statement of Mr. Slesinger follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [Mr. Slesinger's full statement can be found at: https://
docs.house.gov/meetings/if/if16/20180130/106810/hhrg-115-if16-
wstate-slesingers-20180130-u5050.pdf.]
    Mrs. Blackburn. The gentleman yields back.
    Ms. Hovis, 5 minutes.

                  STATEMENT OF JOANNE S. HOVIS

    Ms. Hovis. Chairman Blackburn, Ranking Member Doyle, 
members of the subcommittee, thank you for your commitment to 
bridging the digital divide. I am Joanne Hovis. I am President 
of CTC Technology and Energy, a communications engineering and 
planning consultancy. I am also CEO of the Coalition for Local 
Internet Choice, a coalition of public and private entities 
that believe solving our Nation's broadband challenges requires 
a full range of options, including locally-driven efforts and 
public-private collaboration.
    As we look forward to Super Bowl Sunday, I suggest today 
that our country's drive to bridge the digital divide is a 
critical test of our ability to develop a winning strategy on 
one of the most important playing fields of the 21st century. 
Let me ask a couple questions in this regard. First, do we 
actually have a winning strategy?
    Much of the current discussion here in Washington seems 
premised on the idea that a winning broadband strategy will 
smash so-called barriers such as environmental processes, local 
process, and cost of access to public facilities. In my 
experience, the premise is wrong. As multiple members of this 
panel have said, the fundamental reason we do not seek 
comprehensive broadband deployment throughout the United States 
is that areas with high infrastructure costs per user, 
particularly rural areas, fail to attract private capital. To 
solve this, all levels of government can take steps to improve 
the economics of broadband deployment in areas where investment 
has been insufficient. These include not only rural 
communities, but also underserved urban areas, such as small 
business locations in cities and suburbs, and low-income areas 
where adoption is low and incumbents see no return that 
justifies network upgrades. Particular attention and support 
must be directed to those areas. Without such efforts, private 
dollars will continue to flow primarily to the most profitable 
areas.
    A focused game plan would involve these plays. First, 
support public-private partnerships that ease the economic 
challenges in constructing rural, urban, and tribal 
infrastructure; second, incent local efforts to build 
communications infrastructure, infrastructure that private 
internet service providers can use by making bonding and other 
financing strategies more feasible, potentially through reduced 
interest payments or expanded use of tax exempt bonds or 
expansion of the new market tax credit programs; empower local 
governments to pursue broadband solutions of all types, 
including use of public assets to attract and shape private 
investment patterns so as to leverage taxpayer-funded property 
and to create competitive dynamics that attract incumbent 
investment; require all entities that benefit from public 
subsidy, including assets to publics assets, to make 
enforceable commitments to build in areas that are historically 
unserved or underserved; and maximize the benefits of 
competition by requiring that all Federal subsidy programs are 
offered on a competitive and neutral basis for bid by any 
qualified entity.
    The current strategy doesn't squarely face the challenge. 
Many current efforts at the FCC and in this body are focused on 
reducing the private sector's cost of doing business, such as 
by blanket removal of local process and by forcing local 
communities to subsidize carrier access to public property. All 
of this simply makes more profitable the already profitable 
areas of the country rather than changing the economics of 
broadband deployment in areas where there is no return on 
investment.
    And if these strategies are premised on the idea that 
removing so-called barriers will lead to rural deployment of 
5G, it is critical to know that no credible engineer, market 
analyst, or investor, is claiming that 5G deployment is planned 
or technically appropriate for rural areas. This is because 5G 
is a wireless technology for very fast communications over very 
short distances and is, thus, not well-suited to low density 
areas.
    If the goal is to attract private capital to rural 
communities, making wireless deployment more profitable and 
high-return metropolitan markets is exactly the wrong way to do 
it. Rather, this approach is like moving the ball a few inches 
and calling it a touchdown.
    My second question is, do we have the right players on the 
field? Let me suggest that local governments have been most 
valuable players in creating and incenting broadband deployment 
for years, and that it is counterproductive to vilify 
localities based on the evidence-free assertion that local 
efforts and local processes restrict or deter private 
investment. The assumption that the Federal Government is more 
motivated to enable deployment of broadband, ignores the 
immediacy of the digital divide for local officials. And the 
assumption that the Federal Government is more competent to 
develop strategies ignores the experience of the past decade, 
which demonstrates across a wide range of public-private 
collaborations that local governments, given the opportunity, 
will apply creativity, local resources, physical assets and 
diligence to try to solve broadband problems.
    My testimony includes examples of a wide range of different 
public-private collaborations that are in existence or in 
development in communities ranging from West Virginia to 
Wyoming to New York City, to the coastal cities on the West 
Coast.
    Let me say, finally, that preempting local efforts and 
authority is not a winning strategy, as it simply removes from 
the playing field one of the most important players.
    My thanks for your consideration.
    [The prepared statement of Ms. Hovis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentlelady yields back. Ms. Swanson 
Katz, you are recognized for 5 minutes.

                 STATEMENT OF ELIN SWANSON KATZ

    Ms. Swanson Katz. Good morning, Chairman Blackburn, Ranking 
Member Doyle, and distinguished members of the committee. I am 
the consumer counsel from the State of Connecticut--go 
Patriots--you brought it up. I am head of a small, independent, 
nonpartisan state agency that advocates for consumers on issues 
relating to electricity, natural gas, water, and 
telecommunications.
    In that capacity, I serve as Governor Malloy's designee to 
the Intergovernmental Advisory Committee to the FCC, in which I 
serve as chairman. I am also President of the National 
Association of State Utility Consumer Advocates, an 
organization of 44 consumer advocates across the country, 
including the District of Columbia. And in that capacity, I 
serve on the FCC's Joint Board for Universal Service. So my 
interest in this and my time spent on this is deep.
    So I thank you for your interest and your attention to this 
important issue of the digital divide. As you know, there are, 
as we have heard, there are many, many Americans who--and 
particularly small businesses--that do not have access to 
broadband.
    According to Pew Research Center, that is about 25 percent 
of Americans do not have a broadband connection in their home. 
That number rises to an astonishing 39 percent in rural 
America. And there is approximately 5 million homes with 
school-aged children which are equal over 17 percent of those 
homes with school-aged children do not have a broadband 
connection. And it is particularly egregious in low income 
households.
    In Connecticut, we wanted to learn more about the digital 
divide, particularly as it impacts children. And you may be 
surprised by that, since Connecticut is generally seen as an 
affluent state with generally-sound broadband infrastructure. 
However, like every state, we have unserved and underserved 
communities. We, therefore, commissioned a report with the 
Hartford-based group called Strategic Outreach Services to 
assess the affordability of an accessibility of broadband for 
students in the north end of Hartford. That is a predominantly 
ethnic minority community with predominantly low income but, 
nonetheless, an area known for its community pride and 
commitment to its schools.
    And we worked in that partnership with Janice Flemming-
Butler, who is the president of that organization, and founder. 
And I mention her, because she is in the room today, which is a 
testimony to her commitment. And for those of you who are 
interested, I urge you to talk with her.
    So we met in that capacity. We met with educators and 
parents and students. We met with church leaders. We met with 
neighborhood watch site organizations. We met with city 
leaders. We talked to literally hundreds of people in the North 
End of Hartford. And what we learned is that many students in 
the North End suffer from the Homework Gap, that area that we 
define as generally between 6:00 to 10:00 p.m. When students 
need access to connection to do their homework.
    And what we heard is that many students take extreme 
measures because they don't have a broadband access at home, 
either for affordable or because of access. And we heard 
stories that students would go to fast food restaurants to try 
to do their homework. And in fact, one of the local restaurants 
changed its policy so you could no longer sit there that long, 
seemingly in response.
    We also learned that students venture out at night into all 
kinds of weather trying to catch Wifi from other buildings. 
People were upset that the public schools shut down the Wi-Fi 
after hours, so students can sit nearby, although we learned 
they did it because of safety concerns.
    We heard from parents who recognized that broadband was 
important to their children, but simply found it unaffordable 
or unavailable at any price, or the back balances prevented 
renewals. We saw long lines of students queued up at the public 
libraries to use their computers, although when they closed at 
6:00, they had nowhere to go. And in fact, since we have done 
the reports, some of those branches have closed.
    There is also frustration expressed that policymakers saw a 
smart phone as a substitute, but that is not an adequate 
substitute. It is very expensive to do your homework on a smart 
phone, and it is very hard to type a paper. So there is simply 
not an adequate substitute.
    So what troubled me as a consumer advocate, as a former 
teacher, as a parent, and as a human being is that if it is 
happening in Connecticut, it is happening everywhere. And no 
child should have to sit in Dunkin' Donuts or McDonald's to do 
their homework, or sit outside in the dark trying to finish a 
project. And the implications for our education system and the 
quality of education that we deliver to children in low income 
urban communities, and rural communities, is profound.
    We would never say to students whose parents can't afford 
textbooks, I am sorry, you don't get to learn history, or math, 
or English. Or if you don't live near a library, I am sorry, 
you don't have access. But that is, in effect, what we are 
saying to these children, to the entire generations by failing 
to address the Homework Gap in so many areas.
    So my ask for you today is that you consider the urban 
communities as well as the rural communities. We are working 
with both in Connecticut. And it is not just this question of 
adoption. It is not just simply that they can't afford it, it 
is also a question of quality. And that makes a difference as 
well.
    So thank you very much.
    [The statement of Ms. Swanson Katz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [Ms. Swanson Katz's full statement can be found at: https:/
/docs.house.gov/meetings/if/if16/20180130/106810/hhrg-115-if16-
wstate-swansonkatze-20180130-u5060.pdf.]
    Mrs. Blackburn. The gentlelady yields back. And Ms. Swanson 
Katz, would you please recognize your guest again?
    Ms. Swanson Katz. Yes, Ms. Janice Flemming-Butler.
    Mrs. Blackburn. Janice, would you please stand?
    Thank you for your good work.
    By way of correcting some statements that were made 
earlier, and for the information of those with us today, I 
wanted to reiterate the subcommittee hearing activities 
relative to infrastructure that have taken place.
    You had November 16th, a hearing on The Race to 5G; October 
25th, FCC Oversight Hearing; July 25th, we had the FCC 
Reauthorization Legislative hearing; June 21st, the hearing on 
Defining and Mapping Broadband Coverage; and actually, we had 
some on the committee that felt that one was redundant because 
we had already had a March 21st hearing. An April 5th, Fueling 
the Wireless Economy hearing; March 29th, Realizing Nationwide 
NG911; March 21st, hearing with the discussion draft, some of 
those bills were now in bill form; and Ms. Eshoo's Dig Once 
bill, which has bipartisan support was a part of that; and then 
February 2, Reauthorization of the NTIA.
    So it is time for us to stop talking and get bills in front 
of us and pass them and get to work. And I am going to yield 
first to Chairman Walden for questions.
    Mr. Walden. I thank the gentlelady for her leadership on 
these issues but also for yielding, as I have another 
commitment I have to go to.
    I just want to ask a couple of questions and, first of all, 
thank you all for your testimony and your shared commitment 
with us to get broadband out to all Americans: students, 
seniors, everybody in between.
    Mr. Slesinger, in your testimony, I was intrigued, on page 
3 you said, ``Broadband deployment is not delayed by 
environmental impact statements. In fact, no broadband project 
was ever required to do one by the Federal Communications 
Commission.''
    You are not really saying no broadband deployment project 
has ever been required to do an EIS, are you?
    Mr. Slesinger. That is correct. Many have had to do 
environmental assessments and some may have done----
    Mr. Walden. Yes. So----
    Mr. Slesinger. Excuse me. Of the 50,000 Federal activities 
a year, there is only about a couple hundred EISs, and none of 
the ones that we could find in the FCC has never required a 
full environmental impact statement.
    Mr. Walden. Yes. Reclaiming my time, because I think it is 
actually required through other agencies. Again, 55 percent of 
my district is Federal land, so I am somewhat familiar with 
this, and as I said, it is 69,341 square miles. By the way, 
Connecticut is about 5,544, not that we are counting. New 
Jersey, 8,722, Mr. Pallone.
    But the point is, I run into this all the time on siting. 
We are trying to get broadband out there. We are trying to get 
three-phase power into--some of our communities have waited 3 
years to get an EIS to do four power poles on BLM land, and so 
I think there is an issue here with siting. I just think there 
is more there than what you represent in your testimony.
    I want to go to Mr. Gillen. Thank you for your testimony as 
well. As you know, we have seen these situations with various 
Federal laws and State laws that have delayed. I know Mr. 
Shimkus will probably speak to this because it was in his 
district, I guess. 2016, a company was looking to expand by 
adding a 14-by-10-foot area of land adjacent to its existing 
facility in a parking lot. The study they were required to do 
took 5 months to complete and cost thousands of dollars.
    Have you or Mr. Polka or anybody else on the panel who 
actually does deployment, tell us about the things you have run 
into. Tell us what you like about these bills. You have 
referenced some in the testimony, but your member companies and 
all, what are you seeing? Is this a problem or isn't it? 
Because on one end of the panel we hear it is not a problem. On 
the other end we hear it is a problem. I sort of live in a 
district like mine firsthand. So, Mr. Gillen, do you want to 
start off?
    Mr. Gillen. Thank you, Mr. Chairman. Your example is a good 
one. It is something we face every day throughout the country. 
Carriers are running into challenges that, particularly when we 
start talking about things like this, that to install 23 of 
these in a parking lot costs $173,000 in environmental and 
historic reviews and takes many months. We don't think that 
makes any sense. There are times where it is appropriate to 
have those types of things----
    Mr. Walden. Right.
    Mr. Gillen [continuing]. But streamlining that 
Representative Shimkus and others are pursing is the type of 
things that will actually expedite deployment now.
    Mr. Walden. Could you say that again, that was in a parking 
lot?
    Mr. Gillen. In a parking lot at NRG Stadium for the Super 
Bowl last year.
    Mr. Walden. And it cost how much?
    Mr. Gillen. $173,000 to site 23 of these.
    Mr. Walden. Wow.
    Mr. Polka, do your folks ever run into any siting problems 
that we could address?
    Mr. Polka. Absolutely, Mr. Chairman. I have visited with 
members all across the country. Our members literally build 
into their budgets time and money because of how long it takes 
for attachments to poles to produce broadband to be approved 
and permitted and to move forward. Thousands and thousands of 
dollars where application fees are made for makeready, then 
additional engineering studies are made. Further requests for 
engineering studies, duplicating the process. The fact that a 
member company has to build in at least 6 months of time, at 
least, before they can move forward on a broadband deployment 
is actually causing broadband deployment not to be deployed in 
these most important areas.
    Mr. Walden. Ms. Bloomfield?
    Ms. Bloomfield. I would love to jump in on that as well. 
Just to cite a couple of examples, I have a company up in South 
Dakota that had a year-long delay because of needing to get 
some U.S. Forest Service permitting through. You are in South 
Dakota. Your build time is very short, as Congressman Cramer 
knows. You have got periods of time where you miss that 
opportunity.
    Mr. Walden. Right.
    Ms. Bloomfield. In Wyoming, we have had a state BLM office 
that actually wound up treating the broadband build like it was 
a pipeline. So they actually had to get bonding to go ahead and 
do the construction when it was really just a broadband 
conduit. So, absolutely, there are instances. And to my fellow 
panelist's point, time and money is needed to be built into the 
process.
    Mr. Walden. I know my time is about expired. I would argue, 
I am probably one of the few if only chairs of this committee 
that has ever actually been through a tower siting process and 
antenna siting process. I was in the radio business for 20-plus 
years. And while I never climbed a tower, I was involved in a 
lot of that. So I share your pain.
    And I don't think any of your companies want to do 
environmental damage. I think it is a complete false argument 
that somehow we are going to run roughshod over the 
environment. I reject that. That is not the point. The point is 
that we can streamline the discussion process, the siting 
process in the Federal Government that is an analog process in 
a digital environment.
    With that, Madam Chair, I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Doyle, 5 minutes.
    Mr. Doyle. Thank you, Madam Chair.
    I want to start by recognizing a great Pittsburgher on the 
panel and great CEO of the American Cable Association, Matt 
Polka. Matt, welcome. I think Matt will agree with me, most of 
us from Pittsburgh rarely root for the Philadelphia Eagles, but 
when they are playing the New England Patriots, we are all 
Eagles fans. I hope they win.
    Mr. Polka. Don't forget the Steagles too, back in World War 
II.
    Mr. Doyle. That is right. Exactly.
    So, Mr. Gillen, I want to make sure I just understood. You 
were holding that box up and said you don't need any money from 
the Federal Government, just make it easier to streamline, 
deployment of that. And you are not suggesting that you are 
going to--your member companies would take care of the 
deployment in unserved areas in all of rural America or are you 
talking--are those little white boxes going to solve our 
problem in rural America if we just streamline the process?
    Mr. Gillen. We think there are two separate and important 
problems. This helps us drive 5G. It certainly will be in dense 
areas in cities and towns, but, no, it won't solve the problem 
for unserved----
    Mr. Doyle. OK. I just wanted to clarify that, that this is 
not a solution to rural broadband.
    And, secondly, are some of the impediments to deployment 
state and local issues or are they all Federal issues?
    Mr. Gillen. Absolutely it is a mix of both.
    Mr. Doyle. It is a mix of both. OK. Thank you.
    I want to ask Ms. Hovis, in areas that are unserved or 
underserved we see municipalities, either through public-
private partnerships or even on their own, provide broadband to 
their communities. And in some cases when a municipality offers 
broadband as an alternative to an incumbent that may be there, 
we have seen the incumbent actually lower prices. It has been 
better for consumers. But we are also seeing a number of states 
are passing laws to prevent municipalities from providing 
broadband or engaging in a public-private partnership. What 
effect do you think these state laws are having on broadband 
deployment?
    Ms. Hovis. I think it is detrimental to deployment because, 
as I said earlier, it takes important players off the field, 
but it also stops a competitive dynamic from emerging. The 
cities and towns and communities where we have the most robust 
broadband and the most robust competition are places where some 
kind of competition has come into that market and incumbents 
have reacted to that competition and invest as a result.
    I will say also that for smaller and rural communities that 
are unserved and underserved, sometimes the only entity that is 
willing to step up and invest is a community either by itself 
or through a public-private partnership, and I hate to think 
that we here in Washington would try to interfere with local 
collaborations and processes when we are seeing, frankly, a 
thousand collaborative processes bloom around the country.
    Mr. Doyle. Thank you.
    Let me ask everyone on the panel, and this is just a yes-
or-no question, does anyone here on the panel believe that we 
can successfully deploy unserved areas in rural America or 
underserved areas without some sort of Federal investment, that 
it can just be done through streamlining regulation and making 
deployment easy, which I think is important too and we should 
be doing that. But is there anyone here that thinks that we 
don't need to appropriate any money to solve this problem? Just 
yes or no.
    Mr. Spalter. No. We need direct funding by a universal 
service funding mechanism.
    Mr. Doyle. Thank you.
    Mr. Polka. Agreed.
    Mr. Doyle. Mr. Gillen.
    Mr. Gillen. Funding would be helpful on a technology-
neutral basis.
    Mr. Doyle. So you agree that we need funding, though? I 
understand your technology.
    Mr. Gillen. Yes, absolutely. Sure.
    Ms. Bloomfield. Support is needed to make the business a 
case model in rural America.
    Mr. Doyle. Thank you.
    Mr. Slesinger. Yes, definitely needed.
    Mr. Doyle. Thank you.
    Ms. Hovis. I agree.
    Ms. Swanson Katz. Yes, I agree.
    Mrs. Blackburn. OK. And lastly, Mr. Gillen, we saw this 
memo that leaked out of the White House, the 5G memo that 
focused in detail on our network cyber vulnerabilities 
particularly when it comes to foreign actors and the proposal 
of nationalizing our wireless telecommunications 
infrastructure. I think many of us here on the committee on 
both sides of the aisle seems uninformed. I am concerned that 
the White House and the President have not fully addressed and 
rejected this very troubling proposal. We heard some of that 
today.
    That being said, the security of our Nation's broadband 
issue is critical. And at the beginning of his tenure, FCC 
Chairman Pai rolled back a number of Commission items related 
to cybersecurity, including a notice of inquiry specifically 
questioning how the FCC could best secure 5G networks. I am 
concerned that rolling back these measures is part of what has 
caused so much concern amongst members of the National Security 
Council.
    Mr. Gillen, I just want to ask you, do you think it is wise 
for the FCC to roll back cybersecurity initiatives such as this 
5G notice of inquiry? I mean, if the relevant Federal agency 
cannot merely ask questions about how best to secure 5G 
networks, how can we hope to address this problem?
    Mr. Gillen. Thank you, Congressman. It is a great question. 
Cybersecurity is critical to everything we do. If you don't 
have a safe and secure network, we are not serving the American 
people and we are not doing our jobs.
    With respect to the specific question you asked, we think 
that cybersecurity is best handled through a partnership with 
the Department of Homeland Security. They are the experts in 
those we work closely with. And I think the White House 
proposal, I think Chairman Walden and all five FCC 
commissioners have characterized it very well, so I won't say 
anything further about that right now. But in terms of the 
cybersecurity, that is something we work on every day and we do 
need a partnership with the Federal Government to make sure 
that we understand the threats, and a lot of what this 
community and other committees have focused on information 
sharing is critical to doing that.
    Mr. Doyle. Thank you. Thank you, Madam Chair.
    Mrs. Blackburn. The gentleman yields back.
    I will recognize myself for some questions, and I want to 
start with Mr. Spalter, Gillen, and Polka. You all talked a 
little bit about tax reform and how that would help with 
investment. And sometimes I think as we talk about the changes 
in regulatory relief and tax reform, people focus on big 
companies and not on the smaller companies. So if you would 
take just a moment and talk a little bit about how tax reform 
regulatory relief affects your companies in the deployment of 
broadband.
    Mr. Spalter. Thank you, Chairman. They affect our companies 
both large and small across the board. I had the opportunity 
recently to visit with some of our smaller companies in western 
New Mexico, western Wyoming, Alaska, and Montana. And to a 
company, each of them have been elated by the idea that they 
are going to be able to invest more in deploying more 
broadbands to unserved communities, invest more in research and 
development to be able to expand next generation networks, and 
also provide new incentives for their employees, even though 
they have not met many employees. This is a meaningful step 
forward and augurs well for the future of closing the digital 
divide.
    Mrs. Blackburn. Great.
    Mr. Gillen.
    Mr. Gillen. I agree with Mr. Spalter. In terms of the 
wireless industry, it means we have seen promises of new jobs, 
we have seen commitments to build out more networks and add 
capital expenditures, bring money back home. And really it does 
underscore the capital-intensive industries like wireless. This 
tax reform regulatory relief will make a real difference. 
Particularly for smaller carriers, a lot of the regulatory 
relief we are talking about--as my colleagues have said, they 
don't have the staff to manage these processes, so any types of 
streamlining or standardization helps them actually do their 
day jobs and serve consumers.
    Mr. Polka. Thank you. As I said in my testimony, let's take 
a count of the successes that exist. Our member companies 
certainly use private funds to deploy broadband, but the 
benefit of the recently passed tax act cannot be underestimated 
when you look at the investment that now our members as smaller 
internet service providers have to put back into their systems, 
which they are doing. I have heard from members all over the 
country who have said to me that the difference in the 
corporate tax rate will make more money available for the 
company to reinvest broadband serving now hundreds, thousands 
more homes that would otherwise be uneconomical to serve. So 
that has helped tremendously already to give a boost to smaller 
businesses, not to mention the deregulation that has already 
occurred.
    For smaller companies, regulations affect them 
disproportionately. They have fewer customers per mile over 
which to pass that cost of regulation. When the Federal 
Government takes into account that there was a difference 
between small and rural and big and urban and allows for those 
smaller companies to be able to deploy sensibly and take into 
account the burden of regulation, it makes a big difference on 
getting rural broadband out there faster.
    Mrs. Blackburn. Thank you all.
    And, Ms. Bloomfield, I want to come to you now. We spoke 
briefly about some of the good things in Tennessee. I know 
north central Tennessee spent like a quarter million dollars on 
historical reviews and $14 million in investment just to build 
out this. And Mr. Welch mentioned 39 percent of rural America 
is without broadband, and I think people lose sight of that, 
that there is just not that access there. And in Tennessee, we 
were talking about the first round of grants, almost $10 
million that has gone out, and we have got the Scott County 
Telephone Co-Op got $1.9 million. They are going to use that in 
Hawkins County. DTC Communications, $1.765 million to use in 
Smith and Wilson Counties, and Sunset Digital got $1.4 million 
to use in Claiborne and Hancock Counties to expand that 
footprint and to bring more people online, and that type 
investment we want to see.
    At the Federal level, of course, we have got $4.53 billion 
that is there in the USF that is going to be over 10 years to 
expand this service, and $2 billion for rural broadband 
deployment that should come from the competitive reverse 
auction.
    So I want you to talk just a little bit on specifics of how 
this serves to get more people online.
    Ms. Bloomfield. So, Chairman, I think you raise a really 
important concept, and that is coordination. How can we ensure 
that what is going on at the Federal level coordinates with 
what can happen on the state level? And I think that is where 
some of the things the committee is looking at, like accurate 
mapping and making sure we know where the underserved and 
unserved areas are, so that we can focus those limited 
resources, whether they are universal service dollars. And we 
are pleased that the FCC is currently circulating an order that 
looks to restore some of the funding that had been subject to 
the budget mechanism, which will go a long way in terms of 
giving folks regulatory certainty. How do they know that they 
have got the resources to actually deploy? And you combine that 
with some State initiatives.
    What Tennessee has done is really interesting. Minnesota 
has done something similar. Wisconsin has done something 
similar. How do you actually take all of these different pieces 
so that we can thoughtfully, as a country, build out to those 
consumers that actually have not had the opportunity to have 
access. CAFTA is going to be really important. We look at those 
areas, when that auction comes up, as an opportunity for my 
companies to potentially edge out into communities that are 
unserved that are neighboring their areas where they may have 
an opportunity to bring robust broadband like they have to 
their own incumbent areas out to those who are waiting for 
service. So we are hopeful that those rules will be helpful.
    Mrs. Blackburn. Thank you.
    At this time I yield Mr. Welch 5 minutes.
    Mr. Welch. Thank you very much.
    I want to talk about two things. One is a bipartisan bill 
that I have with Mr. McKinley, and then second is this question 
of the rural broadband buildout. And by the way, thank you all 
for what I thought was very, very good testimony.
    Mr. McKinley and I have a bill that would require the FCC 
to define, on an ongoing basis, what is reasonably comparable 
service and reasonably comparable prices in rural and urban 
America. And we have seen, from my perspective, an alarming 
approach by the current FCC chair that is essentially dumbing 
down, as I see it, with successes in rural America.
    Ms. Bloomfield, could you just respond to your view about 
the value of having the FCC, on an ongoing basis, give a 
concrete and scientific answer to the question of reasonably 
comparable in rural versus urban areas? Would that be helpful?
    Ms. Bloomfield. As I mentioned in the statistics that we 
have in terms of the number of my carriers and what the 
capacity is, I think we do have to figure out how you ensure 
that particular consumers' demands increase. The bandwidth 
demands that people are looking for grows exponentially. So how 
do we make sure that you are not creating two different 
services between rural and urban America, and how do you make 
sure there is comparability there?
    Part of the issue that continues to be the underlying 
problem, however, is the high cost of deploying that network. 
So, for example, when you look at something like the ability of 
a rural provider to do standalone broadband for the consumer 
who simply wants the ability to access broadband, they may not 
want the telephone service, they may not want some of the other 
things that come with it. Right now, based on support--sorry. 
It is going to be very important, but it is going to take 
resources and it is going to take support from things like 
universal service.
    Mr. Welch. Thank you.
    Now, Mr. Doyle asked the question that everyone said 
affirmatively we do need Federal funding, and I want to go back 
to that, because I have heard a lot about regulatory reform and 
I have heard a lot of good ideas. That makes sense to me. I 
have heard a lot, by the way, that the local efforts are very 
important, so what we do should enhance them, not diminish 
them. But bottom line, there has got to be money just like 
there was with rural electrification.
    And, Mr. Gillen, in your written testimony, as I read it, 
you didn't believe there was a need for Federal funding to 
deploy 5G. So if that is the case, would your folks be able to 
commit that you will be deploying 5G services at the same speed 
and pace in rural America as in urban America?
    Mr. Gillen. 5G will start in dense areas throughout the 
country. A rural town in Burlington, Vermont, will see it. 
University of Vermont will see 5G. It really is to start dense. 
When you talk about reaching the unserved households, you are 
going to need money.
    Mr. Welch. That is obvious, right? I mean, you go where the 
market is. And there is no expectation, on my part, that anyone 
who has shareholders and has some obligations to the 
shareholders would do anything different. There is a 
fundamental policy question that only Congress can answer. Are 
we going to show us the money in rural America.
    So there is a bill that Mr. Pallone has that is based on a 
study that the FCC did saying that we really need $40 billion. 
And Mr. Walden raised questions about spending that wisely, and 
we want to do that, make sure it is done right. But of the 
panelists here, does that FCC figure, $40 billion for this 
buildout for reasonably comparable service in rural America, 
sound like a good number to you? I will start with you 
Jonathan, Mr. Spalter.
    Mr. Spalter. Congressman Welch, there are numbers of 
studies that have indicated that more monies are needed for 
reaching ubiquitous access for Americans, a goal that we all 
share. Not necessarily agreeing with one or another set of 
numbers, what we all agree to is that we do need direct funding 
where there is no business case to deploy high-speed broadband, 
especially in unserved areas, and using universal service fund 
as the platform for doing so we know is most efficient and most 
administratively logical.
    Mr. Welch. And even assuming we do the things that have 
been recommended with regulatory reform and local partnerships, 
the number that we are going to have to spend is in the 
billions of dollars. Does anyone disagree with that?
    Mr. Spalter. No.
    Mr. Welch. Ms. Hovis?
    Ms. Hovis. I do agree. Unfortunately, it is far more costly 
to build in rural areas on a per-user basis. It gets more and 
more costly with lower density, and not just for capital costs, 
but also for operating costs, and that is the fundamental 
challenge that we face. But directing the funding there and 
making sure that the funding is well suited to the needs there, 
and the needs are the same in rural America as in urban and 
suburban America. We all need high speed. We need scalable 
networks that are capable of growing over time. We don't need 
second-rate services in rural America.
    Mr. Welch. My time is up. I want to thank the panel.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Latta. No, Mr. Lance, you are recognized. Five minutes.
    Mr. Lance. Thank you very much, Chairman.
    Mr. Spalter, in your testimony, you mentioned that finite 
Federal resources should be targeted to ensure that funding to 
unserved areas, that that funding is prioritized, and I 
couldn't agree more with that. And I have introduced a 
resolution stating as much. Could you please expand on the 
importance of prioritizing Federal funds to unserved areas of 
the country, and are we able to learn from past mistakes 
related to this issue when we are deciding how best to spend 
Federal resources?
    Mr. Spalter. Thank you very much for the question, Vice-
Chairman Lance. As stewards of Federal dollars of broadband 
providers in Congress, all of the American republic have to be 
very, very cautious about how we use those dollars, and we have 
to make sure that they are being used efficiently and to 
targeted purposes. And we are all focused on doing so in ways 
that will achieve those goals.
    With respect to reaching unserved areas where there is no 
access to broadband. Those high-cost areas require a partner in 
government-directed funds using universal service fund 
methodologies is, we believe, the appropriate way to go. And 
there is no doubt that in order to fulfill the obligation that 
we have of closing the digital divide, thinking very carefully, 
as we are doing here today and I hope we are going to continue 
to do, of how we actually can expand that universal service 
budget to--universal service fund budget to meet this great 
goal of closing the digital divide is, I think, a great 
priority for all of this.
    Mr. Lance. And, Mr. Spalter, do you believe that this will 
require statutory change or can this be done administratively 
or will it be a combination of both?
    Mr. Spalter. I believe it can be a combination of both. It 
will be left to Congress to decide its commitment to, in fact, 
fulfilling this great goal we have of closing the digital 
divide. To do so we understand it is going to cost tens of 
billions of dollars. Universal service funds and the universal 
service fund platform in the direct funding model has been 
proven to be most efficient in doing so. And we think both 
administratively and through statute there are going to be 
mechanisms of actually achieving this goal, and we are looking 
forward to working with you in doing so.
    Mr. Lance. Thank you.
    Would other members of the panel like to comment?
    Yes, Ms. Bloomfield.
    Ms. Bloomfield. I would just like to jump in and say, when 
I look at my membership, it is a combination of universal 
service along with support, like the USDA has with our U.S. So 
you build the business case with universal service that allows 
folks to get the capital funding through things like USDA to 
actually build these networks. And the one thing I would say it 
is going to be really important for us to be thinking about 
building future proof networks, to make sure that as we look at 
that underserved and those finite resources, that we are using 
them to build networks that will last into the future.
    Mr. Lance. Thank you.
    Anyone else like to comment?
    Mr. Polka. Congressman, I would agree. I would totally 
agree. There certainly is a need, as has been demonstrated in 
very hard to reach unserved areas where Federal funds can be 
very important to closing that aspect of the digital divide. 
But then as we look at past programs, whether it is at the 
reform of the Connect America Fund, which is focused on 
unserved areas ensuring that we are using reverse auctions to 
spend money wisely, these are good ideas to employ.
    The last thing we want to do, as I said, is to discourage 
private investment, and one way you would do that, and you 
recognize this because of your resolution, is by permitting any 
situation where an unsubsidized internet service provider would 
have to face subsidized competition. That is a disincentive to 
further investment in deployment of broadband.
    So, otherwise, I think you are right on target as it 
relates to focusing on areas where broadband is unserved. Let's 
make sure that we are not overbuilding the unsubsidized 
providers.
    Mr. Lance. So we have to be careful regarding subsidies and 
those nonsubsidized.
    Mr. Polka. Correct.
    Mr. Lance. Yes. Anyone else on the panel care to comment?
    Yes, of course.
    Ms. Hovis. Congressman, my perspective would be that 
competition in this environment, as in any environment, gets 
better results. And if there is going to be public funding for 
broadband deployment, then offering it on a competitive basis 
so that the best situated, most efficient, perhaps most 
motivated, strongest set of partners are able to bid for that 
kind of thing, rather than offering it to a single set of 
companies where there is no competitive benefit. I think that 
is a proven strategy.
    Mr. Lance. I would agree with that.
    Yes. Connecticut near New Jersey, although we have to be 
careful as to whom we root for in New Jersey.
    Ms. Swanson Katz. My remarks concerning the New England 
Patriots are my own and do not reflect the nonpartisan views of 
the Connecticut Consumer Counsel.
    I would just like to add that I think when you are talking 
about effective deployment of dollars, Federal, state, at any 
level, we have to recognize the very legitimate important role 
of state and local governments in maximizing those dollars, and 
I would just encourage you to think about including them in 
this and not excluding them.
    And as an example, in the northwest corner of Connecticut, 
we have 26 municipalities, all nonpartisan, have banded 
together and are looking at models for how they can get a 
network deployed into their neighborhoods. And it is much more 
efficient to have 26 small towns working together in trying to 
do things like streamlining, permitting, and finding siting for 
these companies then and working with private sector as their 
model. So, keep that in mind, that we will be much more 
effective if we allow municipalities and local leaders to work 
on this level.
    Mr. Lance. Thank you. My time has expired. My thanks to the 
entire panel.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Pallone, you are recognized.
    Mr. Pallone. Thank you, Madam Chair.
    I think we all agree that better broadband can help provide 
more opportunities for more people. And to make ubiquitous 
broadband a reality, Democrats on this committee have been 
working on ways to make sure everyone, whether they live in 
rural areas or urban areas, has access to better and more 
affordable broadband services, and that is why we introduced 
the LIFT America Act that would provide $40 billion through a 
mix of reverse auctions and state programs. The bill would 
prioritize sending money to underserved areas and then funding 
underserved areas, anchor institutions, and building our next 
generation of 911 systems.
    I wanted to start with Mr. Spalter. In your testimony, you 
discuss the need for Federal funding to support a more 
expansive broadband network. Can you just elaborate on why this 
is necessary?
    Mr. Spalter. There is a demonstrable need in America today 
because of the challenging business case of delivering 
broadband to our unserved areas, our hardest to reach areas for 
a direct funding model. We understand that with best intentions 
American broadband providers are doing everything they can to 
extend the opportunities that broadband can bring, but there 
still are areas that are going to require a partnership with 
government. We know that the direct funding model, again, using 
platforms like Universal Service Fund, is the most efficient 
and administratively logical way to actually advance that goal. 
Direct funding has been and will be the principal and most 
sound funding model for actually making the reality of closing 
the digital divide actually happen.
    Mr. Pallone. Well, thank you.
    Over the past year, Republicans have eliminated our privacy 
rights online and destroyed net neutrality, and now they want 
to eviscerate our environmental and historic preservation laws, 
and they have done all of this in the name of broadband 
deployment. So I wanted to ask Ms. Hovis, have you seen any 
evidence that elimination of these protections will bring 
broadband to the millions of Americans who are not yet served?
    Ms. Hovis. No, Congressman. I think that this will make for 
more profitable companies, whether better profitability leads 
to more deployment, particularly in areas that are not going to 
result in profits themselves. It is just not clear to me that 
there is a link between those things. I am concerned frequently 
that certain kinds of regulatory relief, deregulation, or other 
kinds of things are extended to the companies based on the 
premise that it will lead to new deployment in rural areas, but 
there is no commitment or enforceable mechanism for making sure 
that that actually happens. And given greater profitability, 
companies may or may not further invest.
    Mr. Pallone. All right. Thank you.
    I understand that the elimination of our environmental laws 
will not make a meaningful difference in connecting the 
millions of Americans that don't have access to broadband, but 
I do think we need to better understand what the effect of some 
of these proposals would actually be. So I wanted to ask Mr. 
Slesinger, if I could, in your opinion, what would be the 
effect of carving up longstanding environmental protections as 
some of the bills before us would do?
    Mr. Slesinger. Thank you, Mr. Pallone. I think that the 
impacts can be very big. Broadband cells that we are talking 
about are not large environmental problems to this country. 
There are ways that the Forest Service and BLM on their lands 
could do a programatic impact statement that would make it very 
easy to get any required Federal approval. It is not a major 
issue. We have programmatic impact statements for solar; we 
could do it easily for broadband. And I don't think that is a 
big problem.
    However, I think we are missing the issue here. And in many 
of these cases, it is state and local zoning and other things 
that are the problem. But I think the issue that I was talking 
about was mainly in the LIFT bill where we are talking about 
things well beyond broadband that can have large environmental 
impacts, and in that case, we need to keep the environmental 
laws strong and enforced so that people's communities are not 
adversely affected by large Federal projects. Clearly, the FCC, 
as I said, has never required an EIS. There is not a big burden 
in this, but it is an excuse not to do unprofitable broadband 
in rural areas.
    Mr. Pallone. All right. Thank you very much.
    I yield back, Madam Chair.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Shimkus, you are recognized.
    Mr. Shimkus. Thank you, Madam Chairman. Thanks for being 
here on an issue that we seem to continue to talk about.
    I am pretty proud of my co-ops, my small telephone 
companies in these areas that are trying to do just that. So 
there is a need for government involvement to provide some 
certainty financially because the return on investment is just 
not there. I always talk about the need on the Universal 
Service Fund to get that right and start parlaying that toward 
a broadband deployment.
    But I think when we hear the testimony--I am sorry, I am 
bouncing back like a lot of members between two hearings. When 
we just beat up large corporations and their profitability, we 
really want to incentivize these small co-ops and these small 
family privately owned companies to do what they are trying to 
do right now, and then bring competition. This came from my 
local newspaper just January 28, not that I solicited it. And I 
would like to ask unanimous consent to submit this for the 
record.
    Mrs. Blackburn. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. It just talks about a community in my 
district, Highland, Illinois, that because they felt they were 
held hostage to the local provider, they built their own fiber 
system.
    Now, the editorial is pretty good because it says there was 
just a report out, the Harvard University study, and they were 
fifth out of 27 public utilities that said you are doing a good 
job. But at the end of it, it also says, but there are hidden 
costs when you have a government run system, right, the 
government is assuming some of those costs just on payroll and 
insurance and all those other things. So I just thought it was 
timely, and I wanted to submit that for the record because this 
does really segue into this debate.
    And I do believe regulatory burdens slow the process up, 
and especially for these smaller companies, whether privately 
or public. So that is why we did the SPEED Act, which is an 
attempt to alleviate some of these additional reviews, 
especially in the environmental and historic reviews.
    Now, the key to this small provision of this package is 
that it is in right-of-way and it is already being used. So it 
is not like new. It is not like a green field area. It is not 
like you are building over new territory untouched pristine 
land. It is using current right-of-ways and current systems and 
with a focus on size.
    So, Mr. Gillen, can you elaborate on the challenges of the 
environmental and historic reviews that present for a 
deployment and how this bill might address those?
    Mr. Gillen. Absolutely. Thank you, Mr. Shimkus. Thank you 
for your leadership on this issue. I agree with everything you 
said. When you are talking about siting rights-of-way or siting 
devices like this, like your bill addresses, right now, that 
adds thousands and thousands of cost and months and months of 
review that we don't get back that is delaying deployment and 
increasing the cost of deployment. So absolutely the SPEED Act 
would address a core impediment we face.
    Mr. Shimkus. Let me follow up. And as you follow actions 
going around through the states, is this similar to what some 
of the states are doing in this venue in this way?
    Mr. Gillen. Absolutely. I think the notion that we need 
both state and local governments to tighten how they do this, 
and we need the Federal Government. It is going to take both 
for us to do this.
    Mr. Shimkus. Mr. Spalter, how important is it for 
communications, this whole debate, a policy to apply equally 
regardless of technology?
    Mr. Spalter. Technology and neutrality is extremely 
important as we think about the opportunities of actually 
closing the digital divide. We support any innovation that 
actually will be able to deliver broadband through whatever 
technology that most suits community and the institutions that 
support that community. What we also realize, though, is in the 
current moment that we are living in, that the most effective 
mechanism is to pull broadband fiber to as many communities as 
possible, and to do so needs creative partnership that has to 
exist between private investment, which is on the table, with a 
strong partner in government through direct funding.
    Mr. Shimkus. And let me follow up with Ms. Bloomfield. Are 
small providers disproportionately impacted by regulations?
    Ms. Bloomfield. Part of that is just that they have fewer 
staff and they have fewer resources so, obviously, time you 
spend dealing with regulations you are not dealing with 
building broadband. But I also do want to commend you for your 
leadership, because I think the other initiative in your 
legislation is you recognize that it is also about upgrading 
the network. So it is not just building it, but what you are 
trying to address is the fact that these networks are living 
and breathing networks, and they need to constantly be 
ungraded, so that certainly eases the process.
    Mr. Shimkus. Thank you. And, Madam Chair, my time has 
expired.
    Mrs. Blackburn. The gentleman yields back.
    Mr. McNerney, you are recognized for 5 minutes.
    Mr. McNerney. Well, I thank the chair for holding this 
hearing, and the witnesses.
    I am going to start with Ms. Katz. I am concerned that the 
FCC's recent action of eliminating net neutrality and Lifeline 
will actually open the digital divide. Is the FCC's current 
lifeline proposal to cut 70 percent of the Lifeline program 
counterproductive to closing the digital divide and making 
broadband widely available to lower income Americans?
    Ms. Swanson Katz. Well, I think the short answer to that is 
yes. The rationale for eliminating, severely curtailing the 
availability of the lifeline is that it would enhance broadband 
deployment, but I think that is comparing apples and oranges. 
This is a situation we are trying to put communication 
capabilities in the hands of our lowest income people, and to 
take those away from them, yes, absolutely will aggravate the 
digital divide, exacerbate it, and have negative impacts on 
many different populations. There is just a lot of talk of how 
lifeline phones are being used by the homeless to connect with 
family and find resources. And so it not only broadens the 
digital divide, but it has a ripple effect on the way we can 
see our most vulnerable citizens impacted.
    Mr. McNerney. Thank you.
    Ms. Hovis, I appreciate your direct testimony. I heard in 
some places the best way to deploy high-speed internet access 
that Americans deserve is to go to public-private partnerships, 
and you stressed that in your testimony. Can you provide us 
with some illustrations from your work regarding the 
effectiveness of public-private partnerships?
    Ms. Hovis. Absolutely. Thank you, Congressman. I am seeing 
around the country hundreds, possibly thousands, of local 
initiatives with the willing and enthusiastic participation of 
the private sector in communities like Sublette County, 
Wyoming, where the local community is planning to deploy 
infrastructure that will be made available to their private 
partners and to business areas, to business districts where 
there is no adequate broadband at all, just speeds of a megabit 
or two, at best, in order to allow businesses to thrive in that 
part of the community. There are efforts like that underway in 
parts of Kentucky and parts of West Virginia, all over the 
country. And then even more ambitious and farsighted efforts, 
the city of San Francisco is considering a public-private 
partnership that is focused on ensuring that the 150,000 people 
in San Francisco who don't currently have broadband, mostly 
because they can't afford it, have access to adequate speeds, 
not one megabit speeds but the same kinds of speeds that you 
and I consider to be appropriate for our families. There is 
enormous creativity on both the public and the private side, 
and the private sector is willingly participating and engaged.
    Mr. McNerney. Thank you. I cosponsored a bill with 
Congressman Lujan that would help public-private partnerships 
get low-interest financing. Would that be helpful for building 
out access?
    Ms. Hovis. Yes. I think it is an incredibly helpful 
approach, because what it does is it makes it feasible for a 
local community to have low-cost financing to build 
infrastructure and then potentially to make that infrastructure 
available for private sector use. We have all agreed on this 
panel that the cost of infrastructure deployment in certain 
markets is prohibitive. If there is a way that public's state, 
local, and Federal efforts can be targeted toward 
infrastructure, then allowing for private sector service 
provision, in some cases public service provision, it is going 
to differ from community to community, but that is a mechanism 
for ensuring that we get infrastructure to places where it does 
not exist in an adequate way.
    Mr. McNerney. Thank you.
    Mr. Spalter, I am going to move to cybersecurity. We have 
had security experts testify in front of this committee that 
many or maybe most of the IoT devices are unsecure, Internet of 
Things devices. By 2020, it is projected there will be 20 
billion to 50 billion IoT devices in use. Should we be 
concerned about the risks that unsecure IoT devices are posing 
to our broadband networks?
    Mr. Spalter. Thank you for the question, Congressman. It is 
a concern that all broadband providers share, that we have to 
be much more focused and increasingly focused on the 
resiliency, the security, not only of our wired networks, but 
also of our wireless networks. The Internet of Things is an 
opportunity of great promise for the economic productivity of 
our country.
    The focus that we have been giving as a broadband community 
to this initiative is also being done in partnership with a 
broader set of colleagues in the internet ecosystem. Our cloud 
companies, our internet information technology companies, 
internet companies increasingly are joining to share the 
responsibilities with us to extend greater security for our 
broadband networks, including for the Internet of Things, and 
we are doing so in partnership with the Department of Homeland 
Security and other agencies of government that we have to work 
closely with to solve this problem.
    Mr. McNerney. Very good. Well, I have a lot more questions, 
but I have run out of time, so I am going to yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Latta, 5 minutes.
    Mr. Latta. Well, thank you very much, Madam Chair, for 
holding today's hearing. This is very, very important.
    As co-chair of the Rural Broadband Caucus and co-chair of 
the Rural Telecommunications Working Group, access to high-
speed broadband in rural areas is a top priority of mine. I 
believe Congress should facilitate the development of robust 
broadband networks by creating a regulatory environment, 
promotes competition, and encourages innovation. That is why I 
introduced a resolution I expressed to be sent to the House 
that broadband deployment should be competitively and 
technologically neutral. I have also introduced the Precision 
Agriculture Connectivity Act with Congressman Loebsack to help 
close the digital divide faced by the agricultural communities 
in rural America.
    And, Ms. Bloomfield, if I could pose my first question to 
you. Agriculture operations generate significant value to the 
national economy and are an essential source of revenue in jobs 
in our rural communities. Today, modern high-precision farming 
requires access to high-speed broadband to support advanced 
operations and technologies that significantly increase crop 
yields, reduce costs, and improve the environment. My bill, the 
Precision Agriculture Connectivity Act, requires the FCC to 
recommend steps to obtain reliable measurements of broadband 
coverage in order to gain a better understanding of the true 
lack of access in America. It is my understanding that finding 
adequate, accurate broadband mapping and coverage managements 
is nearly impossible.
    And so, Ms. Bloomfield, in what ways would it be beneficial 
for the FCC to obtain such data for the purpose of deploying 
high-speed broadband on agricultural croplands in other rural 
areas?
    Ms. Bloomfield. So, Congressman Latta, I appreciate the 
question, and greatly appreciate the leadership that you have 
shown on a lot of these issues. Smart ag is truly the next 
frontier when we think about economic development vitality for 
rural America, and I think a lot of the initiatives you are 
looking at is how do you gather more of that granular data so 
that we can really look at the census track level and figure 
out where is the infrastructure and where is the void. Because 
we certainly know that you need to be able to see it, whether 
it is street level or whether it is literally on the cropland, 
in terms of where that infrastructure resides.
    So I think that when we look at the FCC and some of the 
work that they have been doing in gathering 477 data and trying 
to take that data and figure out in a granular, transparent, 
and accurate way and measuring apples to apples--and the thing 
I always worry about is when you get different entities trying 
to measure, they are measuring different ways of measuring 
where that deployment is. So I think your focus on how do we 
coordinate, how do we actually aggregate this will go a long 
way in terms of seeing where we really need to focus some of 
our future energy and resources.
    Mr. Latta. Let me ask you just to follow up when you talk 
apples to apples and not apples to oranges here. What should we 
be looking at then to make sure that they are looking at the 
right data and, everyone is on the same page here and they are 
not looking at two different things, the same coming with two 
different answers.
    Ms. Bloomfield. So I think we saw a little bit during the 
stimulus where there was actually national broadband map that 
was built, but it was very inconsistent, and it wasn't checked, 
so people were kind of putting in their own data. There was 
really no resource to basically say is this the real data, is 
there really coverage there. And as somebody who represents 
small carriers, I understand that there is always that 
competitive concern about what data you are releasing. But I 
also worry that if you have got an entity like NTIA looking at 
data and you have got the FCC and they are using two different 
measurements, two different land tracks, different speeds, I 
think the ability to actually kind of house it in one place 
where you have got the ability to be consistent, you have got 
the ability to be transparent, I think folks need to actually 
see as it gets developed, and you need to be able to have the 
ability to check it. I think those are things that are going to 
be very important check posts as we go forward on that. But it 
is going to be the foundation for where we go in terms of 
future investment.
    Mr. Latta. Thank you.
    Mr. Polka, there is legislation as part of our hearing 
today which I support that incentivizes 5G wireless deployment. 
I have also introduced a resolution setting the policy of 
competitive tech neutrality so the government isn't picking 
winners and losers out there. Is the cable industry doing 
anything comparable to the 5G rollout with similar speeds in 
coverage?
    Mr. Polka. Comparable and surpassing when you look at the 
amount of broadband service that is being delivered by our 
members in rural America. I had the chance yesterday to hear 
from a number of members all over the country telling us what 
they are doing. I heard from one small company in eastern 
Kentucky, Big Sandy Broadband. They are delivering gigabit 
speed in eastern Kentucky. I heard from a company called 
Hickory Telephone, which is building fiber to the home in 
underserved areas, one of our members in western Pennsylvania. 
We have members all over the country that are providing gigabit 
service: 100 megabit, 200 megabit, 300 megabit service. So we 
are building that service as our customers and our community 
want us to do. And what we ask, and which is why we appreciate 
your resolution, that as we go forward as a country and we look 
at regulations that apply to helping broadband be deployed more 
effectively, that we do so on a competitive technology-neutral 
basis.
    I can tell you we have a lot of area out there that I have 
visited personally with our members. It is amazing how much 
rural area there is out there. Not one company is going to 
solve these problems, which is why our policy needs to 
encourage competitive technology-neutral proponents. So, yes, 
we are providing the service. We are building the backbone that 
actually can help to deliver 5G service down the road as it 
comes farther out into our areas. So we are up to the 
challenge.
    Mr. Latta. Well, thank you very much. And, Madam Chair, my 
time has expired, and I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Loebsack, you are recognized.
    Mr. Loebsack. Thank you, Madam Chair. This is really great.
    Normally, I would be asking questions earlier, but I was a 
little bit late. I had some things in my office I had to do, 
some meetings, but I got to hear from so many of my colleagues 
and all of you folks. And the first thing I want to say is I 
guess when we talk about the funding, making sure that we do 
have broadband in these rural areas. I represent about a fourth 
of Iowa, not quite as much. The State of Iowa isn't quite as 
big as Chairman Walden's district, he likes to remind me, but 
we have a lot of rural areas in Iowa, as you might imagine. But 
it is pretty clear to me that we have got to have some public 
funding. We have got to have a lot of private investment. There 
is no doubt. We have got to make sure we deal with regulations. 
Chairman Walden and I have worked together on that to make sure 
that small internet service providers in particular are not 
unfairly subject to too many regulations so they can actually 
put their resources into building out and making sure that 
rural America is served, instead of simply filling out 
paperwork regulations that are unnecessary, that kind of thing.
    So I think we actually have more bipartisan support, and I 
think the chairwoman would agree that we actually have some 
bipartisan support on a number of these issues here.
    Mrs. Blackburn. Oh, yes. I am accustomed to hearing from 
broadband Loebsack.
    Mr. Loebsack. That is right. Exactly. And thank you very 
much, Madam Chair, I do appreciate that.
    And working with Representative Latta; we talked this 
morning earlier today. I didn't realize he was going to quite 
steal so much of my thunder, but really happy to work with him 
on the Precision Agriculture Connectivity Act. Very important, 
obviously, in my district in Iowa.
    But, of course, related to what he was talking about with 
mapping, I actually did introduce, and with Mr. Costello, last 
year, the Rural Wireless Access Act. And we got it out of 
subcommittee, but the FCC paid close attention to that. That 
comes down, essentially, to I like to call garbage in, garbage 
out. If we don't have accurate maps, then we are not going to 
be able to make accurate decisions and good decisions going 
forward.
    And so a lot of people from Iowa like to say we have a lot 
of common sense, but a lot of what is going on here is just 
common sense that, if we don't have accurate data, whether it 
is an agriculture or that being a subset of something larger, 
then we are not going to be able to make a decision, public 
policy decisions, or even investment decisions on the part of 
the private sector.
    One last point on that. Chairman Pai last year, I did ask 
him because I had heard he had been to northwest Iowa. He drove 
from my home town Sioux City up to southern Minnesota, and he 
found out just how many problems there are in rural Iowa with 
dropped calls and all kinds of things, not to mention, actual 
broadband service as well.
    So I just want to ask, I guess, that, Ms. Bloomfield, you 
have already pretty much responded to what this is all about, 
so I am going skip you for a moment, if that is OK.
    I would like to go to Mr. Gillen, talk about that issue, if 
you would, mapping issue and making sure that we have good 
data.
    Mr. Gillen. As you said, Congressman, thanks to your 
leadership, I think we have all listened and heard. And I think 
working with both national and regional carriers, we have 
worked with the FCC, that will hopefully have a better map to 
inform the mobility fund going forward. And, what that $450 
million a year the FCC is starting to give out will do is 
hopefully start serving those areas in those communities that 
don't have service today, but the condition precedent to doing 
that is the data that you have been looking for, and that will 
start very soon.
    Mr. Loebsack. Yes, the 477.
    And, Mr. Spalter?
    Mr. Spalter. I would agree with Mr. Gillen. And I also want 
to thank you for your leadership in understanding that 
important management principle: what you can't measure, you 
can't manage. And this is particularly true with respect to 
delivering broadband.
    Form 477 has taken great strides as it has been streamlined 
to provide more precise geocoding longitudinally and 
latitudinally for customers that actually have service. The 
next frontier is to try to do so with that kind of geocoding 
specificity for locations that don't have broadband yet. And we 
believe that we have to think creatively and innovatively and 
slightly out of the box in thinking how to do so, as long as we 
have uniformity of data.
    One idea is as the Census Bureau itself is looking at its 
own 2020 effort. Their resources might be profitably brought to 
bear to actually bring that longitudinal and latitudinal 
specificity to help pinpoint areas where broadband is not yet.
    Mr. Loebsack. I would even suggest, mostly jokingly, that 
the FCC talk to all of us who have rural districts, because we 
can actually identify where the gaps are and where they are 
not, if we get around our districts like I do all the time.
    Ms. Bloomfield, would you like to elaborate a little bit?
    Ms. Bloomfield. The only thing I would add is we talk about 
your initiative on some of the wireless front is that, just a 
reminder, that wireless needs wires so that those networks 
can't even be built if you don't have the backhaul out there. 
And as we have more and more need for capacity and more and 
more ability for you, if you are like me and I have gotten lost 
in northwest Iowa, the ability to pull over and actually pull 
up a map and see where you are, to do that data you actually 
need that infrastructure, so they really go hand-in-hand. They 
are complementary services, and I think they are going to all 
be very important for rural Americans.
    Mr. Loebsack. Thanks to all of you. And thank you, Madam 
Chair.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Olson, 5 minutes.
    Mr. Olson. I thank the chair. And welcome to our seven 
witnesses. A special welcome, Mr. Gillen. And please give our 
warm regards to your boss, Meredith Attwell Baker. As you know 
that family is a legend in Houston, Texas, iconic. So please 
give our regards.
    I would like to brag about Texas and give perspective on 
Chairman Walden's comments about square miles. He talked about 
Connecticut and Oregon. For the record, Texas is 268,597 square 
miles. Now, my district, Texas 22, is a small portion of that, 
1,032 square miles. Very small. Basically, it is split halfway 
between rural and suburban. But because it is so close to 
Houston, all the challenges with the telecom industry, the 5G 
aren't really applicable. But we did suffer a disaster. 
Hurricane Harvey hit us in August, and we weren't alone.
    After that, Puerto Rico was hit with Maria and the Virgin 
Islands as well, and Florida was hit by Hurricane Irma. And we 
have seen catastrophic wildfires in California and subsequent 
floods and just rushes of mud because of the loss of the cover. 
And when these disasters hit, as you all know, it is critically 
important that we get the communications infrastructure up and 
running as quickly as possible to give these communities the 
help they need to recover as quickly as possible.
    And that is why I have this bill that is probably on top of 
your pile. It is H.R. 4845. It is called the Connecting 
Communities Post Disasters Act. And this bill makes a simple 
step by allowing local communities to bypass long and 
unnecessary environmental and historic views and to replace 
damaged or lost towers and communication infrastructure. Not to 
have new ones but replace ones that are hit by disaster.
    My first question is for you, Mr. Gillen. Houston made a 
strong effort after Hurricane Ike to bury their communications 
cables, and that was very successful. In fact, FCC Commissioner 
Pai came down a couple days after the storm hit and wowed about 
our buried cables, but he also noted we have a lot of cell 
towers that are exposed to the storm, especially where she came 
ashore there by Corpus Christi. How important is it for you to 
get communications up and ready following a disaster? How 
important is that to fight the disaster?
    Mr. Gillen. It is critical. And I think it is critical for, 
particularly, temporary facilities to be marshaled immediately, 
because as we learned in these most recent storms, that 
smartphones is what Americans need to reach public safety, to 
reach their families, to let people know that they are safe, 
and that cell coverage is critical. And that bill is very 
important because when the storm is over, our jobs are really 
just getting started. And it is how do we restore services, and 
not only restore them, but make them better, and that we have 
the opportunity in your district to start giving you the most 
advanced networks. And thanks to your bill we can start doing 
that more quickly.
    Mr. Olson. They go off the whole night for three straight 
nights, got all these warnings on a cell phone about tornado 
watches, flood warnings. That was valuable information that was 
coming, not from the phone lines, not from the TV, it was 
coming from the cell phones that my kids had, I had, my wife 
had, so it was very important.
    Do you agree that it makes sense to suspend parts of the 
NEPA review when reconstructing these telecommunications 
towers, the infrastructure, just to suspend them a certain 
amount of time to get rolling quickly, as opposed to dragging 
this thing out month after month, year after year?
    Mr. Gillen. To bring back your economy, to bring back your 
constituents, absolutely, and I think it is a very targeted 
relief you are proposing.
    Mr. Olson. Mr. Spalter, Ms. Bloomfield, any comments on 
this issue about disaster?
    Ms. Bloomfield. I would just add that we had about four 
carriers that were in the path of Harvey, and I checked in with 
each one of them. Thanks to the ability to build these future-
proof networks and the bury plant and the ability to put their 
switches underground, we actually, every one of my companies 
that were in the path actually were able to be up and running 
instantaneously, actually never even lost service, so very 
important.
    Mr. Olson. Mr. Spalter.
    Mr. Spalter. Congressman, your initiative to actually move 
forward with H.R. 4845 is meaningful, not only, I know, to 
citizens in your community which were served by companies in 
U.S. telecom like Consolidated and Smart City that were running 
towards danger to support the broadband needs, but also your 
initiative is going to be meaningful for communities around the 
country, including places where I used to live near earthquake 
faults in California.
    It is an absolute necessity that we as a Nation provide any 
mechanism to provide efficiencies so that broadband facilities 
can be put back into place to serve communities that have been 
affected by disaster, and your initiative is one such step, and 
we are grateful for it.
    Mr. Olson. I am out of time, sir. I have one question 
before I yield back. There was discussion, some sort of 
concern, a little hostile, about the football game coming up, 
the Super Bowl, between the Patriots and the Eagles. I have a 
yes-or-no question for all the panelists. Are you all OK, do 
you have a problem with the Houston Astros being the world 
champs for 91 days now?
    Mr. Spalter. As long as you legislate about it.
    Mrs. Blackburn. The gentleman's time has expired on that 
one.
    Ms. Eshoo, 5 minutes.
    Ms. Eshoo. Thank you, Madam Chairwoman. I am not going to 
get into that since I don't have a dog in that fight, but good 
luck to all.
    Thank you, Mr. Olson, for bringing up some of the issues 
that are related to disasters. And I know there was a response 
here, but I think that it is important to note that in the 
fires in northern California, in Napa and Sonoma Counties, the 
cell phones didn't work.
    Life is not tidy. Fires just don't occur between the time 
people get up maybe 7 o'clock in the morning and retire at 
maybe 10 o'clock at night. Were it not for the public safety 
people actually going door-to-door and banging on doors in the 
middle of the night to arouse people to get them out of their 
homes, and they fled in their nightgowns, in their underwear, 
that was it, because the fires were even at the back of their 
houses and their roofs had started burning. And the other alert 
was dogs, their own dogs barking so much that it awakened them.
    So we can't live in a bubble that we have something, this 
one--which I think is wonderful. It is an American invention. 
It is a computer in our pocket. But we shouldn't allow 
ourselves to dream on and say we have something, and it is 
going to alert everyone. So we have to think outside the edges 
of the envelope. But I want to thank the gentleman for raising 
that.
    I want to go to Ms. Hovis and Ms. Katz. I have to go 
downstairs for another hearing of the Health Subcommittee and 
wanted to come back and ask a few questions here.
    What do you think are the biggest impediments to deployment 
that you see in communities? It is certainly in rural 
communities. There are many specifics that belong to rural 
communities, but you spoke very clearly about the Hartford 
area. I was born and raised in Connecticut, so it is nice to 
have someone from Connecticut here, just outside of the 
Hartford area, actually. But I think what the committee needs 
is some pinpointing by you of specifics that will actually 
remove impediments to employment.
    Now, I mean that as a softball question because I have 
legislation on it, and neither bill costs a dime. But anyway, 
to both of you, whomever wants to go first. You want to do it 
alphabetically?
    Ms. Hovis. Thank you, Ms. Eshoo. I couldn't agree more 
about the importance of some of those particular issues. And we 
have talked a lot about rural challenges, but I would say that 
there are some very acute urban challenges that, unfortunately, 
get a lot less discussion. And I think sometimes they are not 
even recognized.
    For example, small business areas in urban and suburban 
areas are remarkably less served in many cases than residential 
customers, and that is because the traditional footprint of the 
cable industry, to its credit, was to go to all of the 
residences in the community. That is great in most metropolitan 
areas because there will be a phone company provider and a 
cable company provider.
    Ms. Eshoo. But you see all the advertisements on TV for the 
commercial site, come do business with us and we are the ones 
that can serve your small business the best. So----
    Ms. Hovis. If the infrastructure is not there, it is going 
to be incredibly costly to get the infrastructure there. A 
large business will be able to afford to pay whatever it takes, 
but a small business that can spend $79 or $99, $129 a month, 
there is simply not a business case for the private sector to 
build best-in-class infrastructure to them. That is not a slam 
toward the private sector. That is how private investment 
works, and the private sector is doing exactly what it should. 
But I think there is an undiscussed conversation that should be 
had about the fact that small business areas struggle at 
remarkable levels, as do very low income neighborhoods, in many 
cases, because there is simply not business case for upgrade of 
the networks.
    Ms. Shoo. Thank you. I want to go to your----
    Ms. Swanson Katz. Yes. If I could just----
    Ms. Eshoo [continuing]. Seat mate there because I have 30 
seconds.
    Ms. Swanson Katz. Sure. If I could just add to that, the 
reason we focused on Hartford is that we were contacted by 
Hartford officials who had done a survey of their small 
businesses and found that they were unable, for the reasons Ms. 
Hovis was discussing, to connect to the internet because they 
were being quoted prices of $8,000, $9,000, $10,000, $30,000 
for a street crossing. And, again, it is because of the high 
cost of the street crossings and things like that. So I don't 
fault the industry, but I do note that that is a reality, and 
so that is where we need to make some progress.
    Ms. Eshoo. Well, I think that that is very helpful.
    Madam Chairwoman, I am going to ask unanimous consent that 
I be able to place the Harvard study that I referenced in my 
opening comments today that deals with communities being able 
to set up their own municipal broadband.
    Mrs. Blackburn. So ordered, without objection.
    [The information appears at the conclusion of the hearing.]
    Ms. Eshoo. Thank you. Thank you to all of the witnesses. A 
good hearing. Important one.
    Mrs. Blackburn. The gentlelady yields back.
    And now the gentleman leading our broadband expansion 
effort, Mr. Johnson, you are recognized.
    Mr. Johnson. Thank you, Madam Chair. I appreciate it.
    And this is such an important hearing. I can tell you, 
living in rural Appalachia, I hear all the time about the urban 
rural divide. It is very, very real. Places that businesses 
will not come into because they can't get access to their 
suppliers, to their customers, provide training for their 
employees. You have got children that have to go to another 
county or to a local township or to a public library to get 
access so that they can do their school projects. We have got a 
lot of intellectual capital and a lot of economic potential in 
rural America that is being just ignored because of this rural 
urban divide.
    And that is one of the main reasons that I was pleased to 
sponsor H.R. 4810, the Mapping Now Act. Because an important 
step to solving the rural broadband issue and expanding 
deployment is, first, accurately identifying where those 
unserved areas are. We need an accurate map to do that. And as 
some of you on the panel and I have discussed, just because one 
facility or one location in a census block says that there is 
coverage, that is not true. I can tell you from somebody that 
lives there, that is simply not true.
    And so we need this legislation that directs the Assistant 
Secretary of Commerce for Communications and Information to 
create that national broadband map and reassert NTIA's 
authority to do so. Many rural areas in Appalachia or Ohio find 
themselves on the wrong side of that urban rural divide.
    We all know that high-speed internet is no longer a luxury; 
it is a necessity today for education, for business, especially 
in this technology-driven global marketplace. So I am going to 
continue to drive this issue very, very hard and working with 
my colleagues to break down the barriers to broadband 
deployment, particularly in rural areas.
    Mr. Gillen, from CTIA's perspective, in your written 
testimony, you mentioned that any new funding should also 
ensure that reaching areas unserved by wireless is reflected in 
the program's objectives. In making funding decisions, better 
data is key, and rural broadband is no exception.
    First of all, do you agree with my assertion that the maps 
are inaccurate, that we really don't have a good definition of 
where the unserved and underserved areas are?
    Mr. Gillen. We certainly agree. We can and we need to do 
better.
    Mr. Johnson. OK. All right. Do you have any suggestions on 
how we can ensure better data of unserved areas?
    Mr. Gillen. Absolutely. I think there are commercial tools 
available that we can start informing our process as well, but 
I think it really comes down to, we have to have a set idea of 
what we are measuring for? What do we decide broadband is? What 
is satisfactory coverage? Just a baseline of what we think we 
need to do and then measure it consistently across-the-board. 
And we think it is important to have one person in charge as 
you direct.
    Mr. Johnson. I can tell you what satisfactory coverage is. 
Satisfactory coverage is coverage. That is what it is. It is 
access. But I appreciate your answer.
    Ms. Bloomfield, could you please explain the benefits of 
having an accurate broadband map?
    Ms. Bloomfield. Absolutely. And I know we have all 
discussed this. And again, thank you for your leadership. But 
the ability to actually get granular, get clear, get 
transparent, and making sure that you are coordinating, so when 
you talk about whatever Federal entity actually is controlling 
the mapping, the making sure that actually we are coordinating 
between all of those who are gathering data. So again, you are 
comparing. You don't have those inconsistencies, which I think 
have led to some of the confusion in the past. And I think the 
whole focus on the ability to access spectrum will also be very 
important in the future.
    Mr. Johnson. OK. In your written testimony, Ms. Bloomfield, 
you mentioned the need for a single authoritative source that 
can provide accurate data at a granular level and on a 
consistent basis to help drive better-informed decision-making. 
So when updating the broadband map, should NTIA use Form 477 
data? And is that data detailed enough? And if not, how would 
you recommend obtaining more granular detail?
    Ms. Bloomfield. So I think you make an excellent point, and 
I think 477 is the best data so far that really is collected 
from all broadband providers, which is going to be important so 
that you make sure that everybody that is in the pool actually 
is submitting the data.
    Now, the problem is it is still self-reporting, so you are 
still going to have to make sure that there is some way to 
check to make sure that there is verification that what people 
report is actually true, other than driving through your 
district and actually doing it anecdotally. So I think that is 
going to be important. But I think having it spread across 
different entities is going to just lead to some confusion and 
not get the results that you are looking for.
    Mr. Johnson. All right. Well, thank you very much.
    I had a lot more questions but, Madam Chair, my time has 
expired. I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Clarke, you are recognized for 5 minutes.
    Ms. Clarke. I thank you very much, Madam Chairman. I thank 
our panelists for their expert testimony here this morning.
    This Congress, I have had the honor of introducing and 
establishing the Congressional Smart City Caucus along with my 
colleague, Congressman Darrell Issa. As co-chair of this 
bipartisan Smart City Caucus, I know deploying broadband in our 
cities is critical.
    We in Congress must do more to make sure that, first of 
all, the deployment is ubiquitous, but to address the 10 
million Americans in urban areas who do not have access to 
broadband as defined by the FCC. And that is why I have 
cosponsored the Connecting Broadband Deserts of 2018, with my 
colleague, Congressman Bobby Rush. Under this legislation, the 
FCC will be tasked with reviewing the state of deployment in 
urban broadband deserts, and will be required to take action to 
help speed deployment if it is not occurring at a reasonable 
pace.
    So, Ms. Katz, what types of issues--and we heard a little 
bit about this when the question was asked, I believe it was by 
Ms. Eshoo, what issues do we currently allow to fester when we 
assume that every part of a city is already connected? And what 
could we do to help address these issues?
    Ms. Swanson Katz. Well, thank you for your leadership, and 
thank you for the question. It is an excellent one. I talked a 
little bit about the homework gap. We have seen continuing 
impacts on small businesses. There is also in my testimony a 
report we did on that issue. And so we see that you continue 
the cycle of lack of opportunity for these areas when they 
don't have access to broadband. This panel, it is delightful 
that it is almost undisputed that it is a utility at this 
point, that everybody needs access to it.
    And so I think some of the most effective things we can do 
is to allow state and local governments to be part of the 
dialogue. It does concern me, as chair of the Intergovernmental 
Advisory Committee, when there is repeated references to 
removing barriers at state and local levels. And, in fact, 
state and local governments are trying very hard to move the 
needle on these things. For example, in Connecticut, we have 
been working for years on a single pole administrator, one-stop 
shopping for connecting to utility poles. That is one of the 
things that is most expensive.
    We are also working, it is very important for smart cities, 
dig-once policies, how can we coordinate on the digging up of 
streets. These are very important but very complex issues, but 
these are some of the initiatives that state and local 
governments are working on.
    Ms. Clarke. Very well.
    Ms. Hovis, did you have something that you wanted to add 
with respect to this, a concern?
    Ms. Hovis. I would say just that from the smart city 
standpoint, and the smart communities, because we are going to 
have smart counties and smart rural areas as well, the 
infrastructure is so critically important. And as long as a 
divide persists and who has access to the best infrastructure, 
then as services in a smart community environment move on to 
the infrastructure more and more, there will be less access by 
some members of the community.
    So our risk here is that the digital divide, rural/urban, 
and that that impacts low income folks and that impacts small 
businesses will get more and more pronounced over time. We 
can't double down on the existing divide.
    Ms. Clarke. The other concern that has been flagged and 
part of this conversation is one of cybersecurity. So that if 
we are talking about smart cities and we are talking about gaps 
in coverage, would any of you speak to what having those 
vulnerabilities could mean from a national perspective?
    Ms. Bloomfield. I would be happy to jump in. I have the 
opportunity right now to serve on the FCC CSRIC working group 
talking about, what is the importance of protecting those 
networks. And one of the things that we think is really 
important is to ensure--I have 850 carriers across 46 states. 
People tend to think of the large carriers, but we need to make 
sure that the small carriers have the ability to protect their 
networks, because sometimes it is the assumption that, you 
know, where the networks are vulnerable is where the problems 
will actually happen.
    So we are spending actually a lot of time in resources this 
year educating our small network operators on how to protect 
their assets, how to protect their consumer assets. And that is 
going to be really important as we move on to the Internet of 
Things.
    Mr. Spalter. And if I could as well, I applaud your efforts 
to make our city smarter, and I also applaud your efforts to 
make our broadband infrastructure for our cities and all of our 
communities safer, more secure. We at USTelecom are taking that 
mandate very, very seriously. We have recently launched a small 
and medium business initiative to make sure that, not just our 
largest companies, but also our smallest companies, as Ms. 
Bloomfield said, who share a vulnerability, can actually do 
incident response, reporting, and information sharing much more 
effectively.
    But our enemies in this domain are getting smarter and more 
wily by the day. We have to think of this as not just a 
challenge carried by broadband providers, but by the entire 
internet ecosystem.
    Ms. Clarke. The ecosystem.
    Mr. Spalter. We have to join in common cause in doing so.
    Ms. Clarke. Very well. I yield back, Madam Chair.
    Mrs. Blackburn. I thank the gentlelady.
    Mr. Guthrie, you are recognized.
    Mr. Guthrie. Thank you very much. Sorry, I have been 
bouncing between a couple of hearings today, so I apologize.
    But I did hear Mr. Johnson's questioning. And I understand 
there were some other questions about mapping. And I know that 
is what we are talking about, and the fact that we have to get 
more granular data and the 477 may not give enough information.
    So this is really to the providers, so for Mr. Spalter and 
Ms. Bloomfield, the questions. Given the need for service 
providers to protect the proprietary asset information and our 
need as policymakers to get more granular broadband 
availability information, is there even a pathway forward to 
get to a street-level understanding of broadband service 
availability that meets both needs? I will just start with Mr. 
Spalter.
    Mr. Spalter. Technologically, I think there is a pathway 
forward. The technology is not only being deployed by our 
Federal Government, particularly by the FCC, but also by those 
that are being advanced by the private sector. I think that 
this is an opportunity going forward to think about how we can 
actually streamline and make a uniform approach to a mapping 
exercise so that we are not merely identifying addresses, but 
actually geocoding longitude and latitudinally relevant 
locations where we need to deliver broadband. Which is why I 
said earlier, first, that it is fantastic via H.R. 4810. You 
and Mr. Johnson are working to come up with creative solutions 
going forward, but also knowing that the FCC is going to be 
driving this process forward. To the extent the NTIA is going 
to be involved, it needs to meaningfully coordinate with FCC to 
avoid duplication and, therefore, confusion. And also, we 
collectively have to think about other assets can be put on to 
the table, including, as I mentioned, whether the Census Bureau 
can use its resources to help map and locate, again, 
longitudinally and latitudinally, areas where there are not 
institutions, residences where there is not yet broadband 
access.
    Mr. Guthrie. OK. Thank you.
    Mr. Gillen.
    Mr. Gillen. Thank you for the leadership on this issue to 
bring more attention to it. I think we are seeing progress. I 
would echo Mr. Spalter's comments. I think it is important we 
marshal all resources, and it is going to take a partnership of 
all of these companies and the government to figure out how 
best to do this. But I think a lot of that, as Mr. Spalter 
said, are right on track.
    Mr. Guthrie. Thank you.
    Ms. Bloomfield. And if I would just add, we talked a lot 
about streamlining. The one thing I would encourage is that we 
don't look at creating multiple burdens so that you are not 
having small companies like the ones I represent having to do 
onerous reporting to three or four different agencies. So, 
again, that coordination is going to be important.
    Mr. Guthrie. Are there mechanisms you would put in place 
that would relieve that burden?
    Ms. Bloomfield. I think it is actually helpful to figure 
out a way to designate who takes the lead. Not dissimilar to 
some of the other efforts that the committee has been looking 
at is how do you actually designate where that point is and 
agree to kind of one form of process, one form of data to be 
collected. And then certainly a challenge process so that folks 
can ensure that the data is accurate.
    Mr. Guthrie. OK. Thanks.
    Mr. Polka?
    Mr. Polka. Completely agree. Mapping is essential. We have 
to know where we need to build. There does need to be a 
partnership. There is no question about it. Whatever 
technological means that we can determine to help better 
determine where broadband is necessary, but ultimately this is 
going to come down to information from the provider.
    In the hardest-to-reach areas, you are going to have small 
companies that do have very, very small staffs, very few 
people. The people that they employ are the ones that are 
literally climbing the poles and serving the customers at the 
counters. They don't have deep legal staffs, nor regulatory 
staffs. So for them to take the time to fill out the 
information that is required is a burden. So that has to be 
factored in. Certainly, that self-reporting is important and 
essential as a piece of how we determine where broadband is and 
isn't as part of the mapping process. But this has to be, I 
think, a much broader, deeper discussion on what is the 
baseline of information that we want to obtain, how can we 
obtain it, and who will be the providers to help provide that 
information.
    Mr. Guthrie. From some of the previous mapping efforts, the 
SBI mapping that the NTIA administered from 2009 to 2014, what 
are some of the deficiencies and maybe lessons learned that can 
be applied? I only have about 45 seconds. So the providers can 
go as you want to go. But what are the deficiencies in that and 
what should we do different?
    Mr. Polka. I would say paperwork. It is as simple sometimes 
as paperwork. When you have forms to fill out, again, by small 
companies who do not have the background, the regulatory, the 
legal background, even then determining more particularly 
census block, census tracks, obtaining the data, the cost of 
the data to even populate the maps, it is extremely difficult 
for small companies to accomplish. It is vital, but here, 
again, it has to be part of a public-private purpose to deliver 
that information.
    Mr. Guthrie. Thank you very much.
    My time is expired, and I yield back.
    Mrs. Blackburn. Mr. Collins, you are recognized for 5 
minutes.
    Mr. Collins. Thank you, Madam Chair. I would like to thank 
you also for just holding this hearing and having such a 
diverse group of witnesses.
    Broadband access, as we all know, is important to our rural 
communities as our reliance on the internet continues to grow. 
Unfortunately, some states like New York are now working to 
complicate this issue, but we will set that aside for a second, 
and say I am at least glad to see some bipartisan bills here as 
the subject of this committee hearing.
    And as we focus on infrastructure, the inclusion of 
broadband is something that I bring up again and again. It is 
not just roads and bridges and airports. Sixty-five percent of 
my district, eight counties, very rural, lot of dairy farmers, 
are certainly underserved.
    My bill, H.R. 4798, is the bill that considers inventory of 
assets for the Communication Facilities Act of 2018. Let's know 
what we have got. Let's at least make it easier for some of the 
smaller carriers. Somebody, when we introduced this, made the 
comment, ``Well, don't the big guys already know what we have 
got?'' And maybe they do, maybe they don't. It never hurts to 
make it easier, but certainly some of the smaller suppliers, I 
think, may be those that end up coming into some of my rural 
communities, if they can see some value.
    So, maybe specifically, Mr. Spalter, I will ask you. As 
common sense as some of this is, I am presuming you would 
support such an inventory of assets, and could you speak to how 
that might help?
    Mr. Spalter. It is not only common sense, but it is music 
to our ears when the Federal Government wants to actually try 
to identify and map its assets. Great. And we encourage that to 
happen.
    I would also say that we know that when and as that mapping 
takes place and as inventories are done, we will be able to 
deliver more broadband more efficiently with the speed to 
market that will be much more effective. When our Federal 
infrastructure and assets are connected to broadband, they 
became more cost effective, safer, and have longer lifespans. 
So this is an important initiative that you are undertaking, 
and we applaud your effort for thinking it through, and we are 
going to support you.
    Mr. Collins. Good. Thank you.
    Mr. Gillen?
    Mr. Gillen. I think this is something actually both big and 
small companies don't know where those assets are, so I think 
it is a critical resource to be able to know when you are 
trying to deploy, particularly trying to deploy as quickly as 
you want to deploy, where we can and can't go. So I think it is 
a critical transparency vehicle for us to be able to start 
building faster.
    Mr. Collins. Yes. Ms. Bloomfield.
    Ms. Bloomfield. I was also just going to commend you for 
keeping it technology neutral, which I think is really going to 
be very important as we actually assess the assets.
    Mr. Polka. Finally, I would just say access to technology 
is important. Particularly for a smaller company where you have 
fewer customers per mile, but the cost of technology that you 
need to deploy the same mile of broadband is just about the 
same, whether you are in rural New York or in the middle of 
Manhattan.
    So having access to additional resources for small 
businesses is extremely important. In fact, I am not aware of 
any other idea like that before that has existed where such 
information would be made available to smaller companies. So we 
certainly appreciate the idea and really look forward to 
working with you on it.
    Mr. Collins. So, Mr. Gillen, you brought your 5G device in. 
Is this even more critical as we are going to have a lot more 
5G devices hanging out there than we are the big towers.
    Mr. Gillen. Absolutely. And I think when you talk about 
Federal assets, there is the post office, there is the Federal 
building in town, and it is critical for us to go in town and 
know exactly where we can start. Because if we want to win the 
5G race against China and others, we need all the information 
we can get.
    Mr. Collins. Do any of the other witnesses care to make a 
comment? I was going to say if not, but go ahead.
    Ms. Swanson Katz. Yes. No, I think it is incredibly 
important to know where the assets are, where the broadband is, 
what is available to consumers. And I think it is also 
important that it be independently verifiable, because I think 
it is important for the public to know that they can rely on 
the data and it's transparently available.
    Mr. Collins. We will make sure it is accurate.
    Thank you, Madam Chair. I yield black.
    Mrs. Blackburn. The gentleman yields back.
    Now to the patient Mr. Cramer.
    Mr. Cramer. I have patience. I am not sick. But thank you. 
And by the way, Madam Chair, thank you for the hearing. And 
thank all of you for your testimony, for being here. And it 
really didn't require any patience at all. This is really quite 
interesting to me and fascinating. So I appreciate everybody 
being here.
    I have to admit that sometimes when I hear about these 
sparsely populated states like Vermont and their digital 
divide, I start feeling a little guilty, because when I look at 
North Dakota, it is hard to claim a divide. Now, there are some 
places, but we have over 90 percent of our population that has 
100 Mbps or more, and 93 that are over 25. So while there are 
still a few spots, our folks do a great job.
    And, Ms. Bloomfield, you know well that, and this is one of 
the concerns I want to get to here with regards to some of this 
policy, that many of your members in North Dakota were 
broadband before broadband was cool. They were efficiently 
using Federal support funds to build out broadband long before 
it was mandated by either tradition or policy. And one of the 
things I worry a little bit about, as we talk about, and I 
support, let's get to unserved before underserved. That is 
really important. We want to have that bridge. It would be kind 
of crazy to have an interstate that if they decided to gravel 
for a couple miles in Montana or something. But as each 
generation comes and the demands get greater in places like 
North Dakota, where it is not just education, it is not just 
health care--huge, really huge--other business, really 
important, access to market is really important. But even 
safety, environmental safety, SCADA systems that have to work 
on our oil pipelines and our gas pipelines and, of course, our 
big transmission lines as we generate a lot of electricity. All 
of that will require upgrades.
    And so as we talk about the efficient deployment of Federal 
funds, I want to make sure that we have protections for 
upgrading as well. Does that make sense? Maybe I will start 
with you, Ms. Bloomfield, to comment, and anybody else that 
would like to.
    Ms. Bloomfield. You are absolutely spot on. And again, 
thank you for your leadership on all of these issues. And I 
think people are always surprised that North Dakota actually 
has probably one of most fiber-rich states in the country, 
because when you look at that land mass, it is pretty amazing. 
But in part, when you are really that rural, you actually see 
what broadband can do to kind of narrow that gap that geography 
creates. So the ability to do telemedicine, the ability to 
actually bring communities together, to do economic 
development. And then when you had the oil industry coming in, 
the ability to make sure that that economic enterprise was 
absolutely able to be supported.
    So the fact that people get so focused on building and they 
forget about the fact that you have got to maintain that 
network, otherwise, down the road, you don't have anything but 
a capacity that is limited by what it was when it was actually 
built. So the ability to live and breath.
    The other thing that I would tout, particularly in a State 
like North Dakota, is the ability of the carriers to 
collaborate with one another. They have created DCN, a State 
fiber network, the ability for them to realize that all boats 
rise. If they are able to build that infrastructure out 
further, all of the carriers in the State actually benefit from 
it, and the State itself benefits from it.
    Mr. Cramer. Well, I might, just to add a couple of 
statistics for others to comment, there are only three states 
that have less population density than North Dakota, but there 
are 20 states and territories that actually have less 
connectivity than North Dakota, so it can be difficult.
    But I also wonder, some of these other states have a lot of 
Federal lands, and we have been talking about that. We do not. 
We have some, but not a lot. It is not a barrier for us. I 
think state policy does matter. And while I agree that 
communities ought to have some competitiveness about how they--
and some control over their own regulation, there should be a 
minimum standard that makes sure that the country is connected 
as well.
    But Mr. Spalter, you wanted to comment?
    Mr. Spalter. Well, I couldn't agree with you more that the 
cost of maintaining and upgrading networks for underserved 
areas is only escalating. It is a multiplier of what the bill 
costs actually are. And we know that particularly as we are 
seeing this extraordinary spike in the data that is being put 
through these networks from an increasingly small number of 
internet companies that are sending video to customers around 
the country, that this is even becoming more profound.
    So I completely agree with your insight but also your 
initiative via 4832 to not only think through opportunities to 
serve communities that have been impacted by disaster, but also 
to better serve communities that already have broadband.
    Mr. Cramer. Yes. Well, I think we have certainly learned 
some things in the last year that can be helpful in; that, so 
why not apply it across the board and avoid special 
circumstances.
    Anybody else?
    Mr. Polka. I would just offer, sir, when you talk about 
upgrades, it is really, really important to remember how these 
upgrades are accomplished. One of the things that I mentioned 
in my comments were about this sexy issue of pole attachments. 
It is incredibly important when you have either--whether it is 
an attachment to a pole or a conduit, it seems like our policy 
is any time something new happens to the pole or the conduit, 
that is a new starting point for a long application process, 
for fees and other things of that nature, rather than saying, 
how can we simplify this process? One Touch Make Ready, 
simplifying this to make sure that we get attachments on the 
poles, internet lines, through the conduits to get broadband 
out there faster. So I hope you factor that into your thinking 
as well.
    Mr. Cramer. Another reason not to nationalize anything.
    And with that, I yield back.
    Mrs. Blackburn. The gentleman yields back.
    This hearing is so popular today we have uc'd Mr. Tonko 
onto the committee for his questions. The gentleman is given 5 
minutes.
    Mr. Tonko. Thank you, Chair Blackburn. Thank you, Ranking 
Member Doyle, for hosting this hearing today.
    I hear from constituents across my district all the time on 
the need for broadband expansion. I was excited to see that the 
ACCESS BROADBAND bill included in today's discussion, which I 
have sponsored, is part of the focus. But I fear that we don't 
have the time to have an in-depth discussion on many of these 
important issues.
    I am proud to have worked on this legislation with 
Congressman Leonard Lance, and thank the bipartisan group of 
Members who have cosponsored the legislation, including eight 
members of the Energy and Commerce Committee who have worked 
together and agreed that this is an issue worth supporting.
    I also want to thank Jonathan Spalter with USTelecom for 
your call to action to move forward on vital bills like ACCESS 
BROADBAND that offer responsible solutions. I have engaged with 
industry and many organizations and believe this is a bill we 
can all work on together and support.
    Chair Blackburn and Ranking Member Doyle, I ask that as we 
move forward, we take a closer look at pieces of legislation 
like ACCESS BROADBAND that have strong bipartisan support. 
Let's have a discussion on what we can improve and let's move 
the bills forward.
    H.R. 3994, the Advancing Critical Connectivity Expands 
Service, Small Business Resources, Opportunities, Access, and 
Data Based on Assessed Need and Demand, or ACCESS BROADBAND--
that acronym took a bit of work--would establish a coordinating 
office for Federal broadband resources. It would use existing 
resources to streamline management of Federal broadband 
resources across multiple agencies and simplify the process for 
small businesses and local economic developers to access them.
    Broadband internet access is often the difference between 
success and failure for students doing homework, job seekers 
training for a new career, doctors reading a medical scan, or 
entrepreneurs starting a small business. However, to date, the 
Federal Government has done a poor job of tracking broadband 
deployment.
    Currently, there is no comprehensive system that tracks 
where Federal dollars are going and how the funding is 
impacting communities. Investments are made with little 
accountability and oversight on behalf of the taxpayer.
    So, Ms. Hovis, can agencies do a better job of coordinating 
Federal resources? And what are some of the current problems we 
see with a lack of coordination?
    Ms. Hovis. Congressman, I think coordination would be 
exceptionally helpful. It is obviously not a simple matter in 
any large organization, whether public or private, but it would 
be helpful, not only because we would be collecting better data 
of all types and knowing exactly how public funds are being 
spent and the impact they are having on the broadband 
environment, Federal Government is a big buyer of services and 
so its dollars are being spent to deploy infrastructure in 
certain places and to make it more economical in other places. 
It would be helpful from that standpoint, but it would also be 
helpful with things like--and I think many of my colleagues 
have spoken to this sort of thing--knowing where public assets 
are and knowing how public assets can be used.
    An example of this would be that there is at the state and 
local level, I think, some confusion among private companies, 
but also departments of transportation about whether assets 
built with Federal funds for transportation purposes can be 
used, excess capacity can be used for broadband purposes, 
whether public or private. Clearing up some of that confusion, 
having coordination among different levels of government and 
among different government entities would be enormously helpful 
and timesaving.
    Mr. Tonko. And, obviously, that coordination could unlock 
more broadband development?
    Ms. Hovis. Yes, I think it could. That information is 
always going to be better, and lack of information, like a map 
that is insufficiently granular, or lack of information about 
what different agencies are doing and spending makes it just 
that much harder to plan in an efficient and pragmatic way.
    Mr. Tonko. I have a question for both you, Ms. Hovis and 
Mr. Spalter. Can we better coordinate to simplify the process 
for companies, for small businesses, and local economic 
developers to access Federal resources?
    Mr. Spalter. Well, I think we can. And I must say, 
Congressman, that the ACCESS BROADBAND Act is an innovative 
step towards unlocking that opportunity. Not only do you 
recognize at its core that we have to do better in managing and 
streamlining and making more efficient Federal broadband 
resources, but the more that our smaller enterprises can have a 
greater understanding of how those resources are being directed 
and how they are being managed, there will be opportunities to 
create even more efficiencies for broadband deployment and for 
their participation in that process.
    And so we are very grateful for your insight, but also your 
foresight in making sure that we can do better in unlocking the 
opportunities of managing our Federal resources in a more 
efficient way.
    Mr. Tonko. Thank you.
    And, Ms. Hovis?
    Ms. Hovis. I totally agree. And I would just add to that 
that it is critically important, obviously, that those assets 
and resources were built for particular purposes having to do 
with the agencies that built them and their critical mission. 
And so it is critical that no asset is ever compromised by a 
secondary use, as important as these secondary uses are. 
Transportation, public safety, all of these kinds of 
infrastructure assets have that first primary use. But subject 
to protection of that use and security and so on, there is 
enormous potential value of this kind of coordinated planned 
approach.
    Mr. Tonko. So I would assess that the Federal Government, 
knowing where it spends on broadband and understanding the 
impact of this spending, are going to provide a lot of 
direction as we go forward.
    So were you going to add----
    Mr. Spalter. I am just agreeing with you, sir.
    Mr. Tonko. OK. Thank you. Thank you so much to our 
witnesses too, and thank you for allowing me to participate.
    I yield back.
    Mrs. Blackburn. The gentleman yields back.
    And seeing that there are no further members----
    Mr. Doyle. Madam Chair?
    Mrs. Blackburn [continuing]. Asking questions--yes, Mr. 
Doyle, you are recognized.
    Mr. Doyle. I would like to get unanimous consent to enter a 
few things into the record. A press release from PCCA on 
today's hearing, an Axios story on the National Security 
Council's plan to nationalize 5G networks, the PowerPoint 
slides and memo discussing that story, and a letter from 
Tipmont REMC.
    Mrs. Blackburn. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Doyle. Thank you.
    Mrs. Blackburn. And pursuant to committee rules, all 
members have 10 days to submit questions, and we would ask that 
you respond in 10 days to those questions.
    Without any further business coming to the subcommittee 
today, the committee is adjourned.
    [Whereupon, at 12:35 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
